<html>
<title> - CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 108-161]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 108-161

  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 of the

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

  CURRENT AND PROJECTED NATIONAL SECURITY THREATS TO THE UNITED STATES

                               __________

                           FEBRUARY 11, 2003


                               __________

89-797              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                    SELECT COMMITTEE ON INTELLIGENCE

                     PAT ROBERTS, Kansas, Chairman
          JOHN D. ROCKEFELLER IV, West Virginia, Vice Chairman
ORRIN G. HATCH, Utah                 CARL LEVIN, Michigan
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
CHRISTOPHER S. BOND, Missouri        RON WYDEN, Oregon
TRENT LOTT, Mississippi              RICHARD J. DURBIN, Illinois
OLYMPIA J. SNOWE, Maine              EVAN BAYH, Indiana
CHUCK HAGEL, Nebraska                JOHN EDWARDS, North Carolina
SAXBY CHAMBLISS, Georgia             BARBARA A. MIKULSKI, Maryland
JOHN W. WARNER, Virginia
                   BILL FRIST, Tennessee, Ex Officio
              THOMAS A. DASCHLE, South Dakota, Ex Officio
                                 ------                                
                      Bill Duhnke, Staff Director
             Christopher K. Mellon, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held in Washington, D.C., February 11, 2003
Statement of:
    Ford, Hon. Carl W. Jr., Assistant Secretary of State for 
      Intelligence and Research..................................    72
    Jacoby, Vice Admiral Lowell E, USN, Director, Defense 
      Intelligence Agency........................................    66
    Mueller, Hon. Robert S. Mueller, III, Director, Federal 
      Bureau of Investigation....................................    44
    Tenet, Hon. George J., Director, Central Intelligence Agency.    25
Supplemental Materials:
    Letter to Hon. George J. Tenet transmitting Questions for the 
      Record.....................................................   107
    Letter to Hon. Robert Mueller transmitting Questions for the 
      Record.....................................................   113
    Letter to Vice Admiral Lowell Jacoby transmitting Questions 
      for the Record.............................................   117
    Letter to Hon. Carl Ford transmitting Questions for the 
      Record.....................................................   122
    Response to QFRs from CIA....................................   127
    Response to QFRs from State..................................   162
    Response to QFRs from DIA....................................   203
    Response to QFRs from FBI....................................   225

 
                    HEARING ON THE WORLDWIDE THREAT

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2003

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-106, Dirksen Senate Office Building, the Honorable Pat 
Roberts, Chairman of the Committee, presiding.
    Committee members present: Senators Roberts, DeWine, Bond, 
Lott, Snowe, Chambliss, Warner, Rockefeller, Levin, Feinstein, 
Wyden, Edwards, and Mikulski.
    Chairman Roberts. The committee will come to order. Ladies 
and gentlemen and my colleagues, it's been a longstanding 
tradition for the Senate Select Committee on Intelligence to 
begin its annual oversight of the U.S. intelligence community 
by conducting a public hearing to present to our members and to 
the American public the intelligence community's assessment of 
the current and projected national security threats to the 
United States and our interests abroad.
    Appearing before the Committee today are the Director of 
Central Intelligence, Mr. George Tenet; the Director of the 
Federal Bureau of Investigation, Mr. Bob Mueller; the Director 
of the Defense Intelligence Agency, Admiral Jake Jacoby; and 
the Assistant Secretary of State for Intelligence and Research, 
Mr. Carl Ford.
    Now, while the United States faces a staggering array of 
new and growing threats around the world, unfortunately none of 
the traditional threats commonly discussed prior to September 
11 have abated. We still face very significant long-term 
potential threats from emerging powers in Asia that continue to 
build increasingly powerful military forces with the potential 
to threaten their neighbors.
    International drug smuggling rings linked to the guerrilla 
armies and the proliferators of ballistic missiles and advanced 
conventional weapons and unscrupulous international arms 
merchants who are willing to sell almost anything to anyone are 
but a few of the continuing challenges that we face worldwide.
    We must also confront the acute threats from what is less 
traditional and often referred to as ``asymmetrical.'' As we 
are all painfully aware, our country faces a great and 
continuing threat from international terrorism, especially the 
group of mass murderers of the al-Qa'ida network.
    As we will hear from our witnesses today, while our 
intelligence agencies and our military forces have won some 
very tremendous and important victories against al-Qa'ida 
during the last year and a half, there is much, much left to 
do. As we have all recently heard, plans to attack us and our 
interests abroad are continuously in motion. We are on high 
alert.
    The threats that are related to the proliferation of 
nuclear and chemical and biological weapons, in particular in 
Iraq and North Korea, are not really new threats. Serious 
observers have seen these crises looming for years, and 
increasing in direct proportion to our unwillingness and that 
of our allies to confront them more forthrightly. But today 
these threats are especially severe, as Secretary of State 
Powell made very clear in his speech last week before the U.N. 
Security Council.
    That is why today's hearing is so important and why I am 
glad that my colleagues and our distinguished witnesses have 
been able to come here today for a frank discussion of these 
threats in front of the American people. Given the need to 
protect our intelligence sources and methods, there will be 
much that we cannot discuss in public. But there is still much 
that we can and we will. There will be a classified hearing 
this afternoon starting at 3:00.
    This past year has not been an easy one for the U.S. 
intelligence community, whose job it is to provide our leaders 
what we call an adequate warning of the threats that face our 
country. And the community has come under criticism--a lot of 
brickbats from the Congress and others in regard to its 
``inability to provide specific warning prior to September 
11th.''
    As I have emphasized repeatedly since the attack on the 
destroyer USS Cole in October of 2000, our intelligence 
agencies have too often failed to provide the timely, the 
cogent and the comprehensive analysis that our national 
security requires.
    As Chairman of this Committee, I intend to conduct vigorous 
oversight of the intelligence community to ensure that it 
provides our leaders with the quality of intelligence they need 
to ensure the security of the American people whether at home 
or abroad. We intend to look at structural reform; we intend to 
assist the IC community with regard to shortfalls that now 
exist; and we intend to take a very hard look at the immediate 
and very serious threats that confront our nation today; and we 
intend to work closely with the independent commission that now 
is taking a look at the tragedy of 9/11.
    But I also want to make clear that our intelligence 
agencies have for the most part--for the most part--reacted to 
the crises of September 11 in ways that should make all 
Americans proud. Whatever problems may have existed before, the 
community today is a very different place than it was before 
the attacks upon the Pentagon and the World Trade Center.
    In my view the community today is taking important strides 
to identify, to disrupt and to dismantle terrorist cells at 
home and abroad. This is ongoing. Additionally, our individual 
agencies are reforming their internal processes in order to 
make it possible for continued success in the future. And they 
are doing this in ways that I would not have thought possible 
only two years ago.
    Now, necessity, they say, is the mother of invention. And 
although their record of performance since September 11 has not 
been perfect--and it's never perfect in the intelligence 
community--it is a very significant and impressive one. Despite 
the critics--and there are many--we are a safer country.
    I believe it is our job in Congress to continue to press 
for improvements in how our intelligence community operates, 
but to do so while bearing in mind the vital missions that 
these agencies must fulfill day in, day out, every day of the 
year, across the country and around the world. As the 
possibility of war with Iraq grows nearer, as petty dictators 
flaunt their nuclear weapons programs in East Asia, and as 
other threats continue and develop around the world, we need 
our intelligence services more today than ever before. With 
that in mind, it is our responsibility to give these agencies 
and their personnel our support, our encouragement and, most of 
all, the resources to perform their demanding and at times 
dangerous missions. Their lives are on the line.
    As the new Chairman of this Committee, I have joined my 
colleague, Vice Chairman Rockefeller, the distinguished Senator 
from West Virginia, in beginning a series of visits to all of 
our major intelligence agencies. We are having what I call 
meaningful dialogue.
    I have not visited every agency yet, but I will. There are 
13. The Vice Chairman and I feel it is important to meet the 
people who are fighting this fight, who are collecting this 
information, who are analyzing it, and who are running the 
institutions that make all of this possible.
    So far I have been, along with Senator Rockefeller and 
Senator DeWine, very impressed in these visits by the quality 
and comprehensiveness of the work that our intelligence 
services are doing. If it were possible to describe all of this 
work in public, the man or woman on the street, whether in 
Dodge City, Kansas, my hometown, or Charleston, West Virginia, 
or in Washington, D.C. would be thoroughly impressed. But the 
men and women who do this work must labor in secret, and it is 
only rarely, as in Secretary Powell's speech last week, that 
the world gets a chance to see the products of their labors 
with anything approaching the detailed appreciation that they 
deserve. Secretary Powell revealed just the tip of our 
intelligence iceberg.
    I know of two individuals here today to whom I would like 
to extend appreciation for their intelligence work. They are on 
the professional staff of this Committee. Mr. Tom Corcoran--and 
Tom, would you stand--is an intelligence officer in the Naval 
Reserve. He was mobilized soon after September 11, spent the 
next year doing very sensitive and valuable work for his 
country. Now he is back on the staff and sharing his knowledge 
with his colleagues and the members of this Committee. Thank 
you for your service, Tom.
    I would also like to thank another professional staff 
member, Mr. Matt Pollard--Matt, would you please stand? Matt is 
an intelligence officer in the Army reserve who like many 
others has just received his mobilization orders. He departs 
next week for duty at a classified location. Matt, I think it's 
a safe bet you're not going to go to Fort Riley, Kansas. I wish 
you were. Matt, you keep your head down, come back to us sooner 
rather than later. Your expertise will be missed. And good 
luck.
    Ladies and gentlemen, our hearing today will enable the 
public to learn more about the products which the personnel in 
our intelligence community, like Matt Pollard and Tom Corcoran, 
are producing. We will hear from the heads of our intelligence 
agencies about what their analysis has identified as being the 
most important threats our country faces. I hope that their 
testimony will also provide the public with some perspective 
upon how their intelligence agencies are adapting to our new 
challenges and threats.
    I look forward to the testimony of our distinguished 
witnesses. I welcome you all to our first open hearing of the 
108th Congress. I now turn to the Committee's very 
distinguished Vice Chairman, Senator Rockefeller, for any 
remarks that he would like to make.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman. And I 
congratulate you and welcome all new members of the committee, 
our witnesses, the press and the public, because this is not an 
ordinary occurrence but an extremely important one.
    In the '90s America seemed to be in an unprecedented period 
of success, the stock market soared, and the possibility of 
democracy spreading around the world seemed to be almost 
unstoppable. The Intelligence Committee's annual threat 
hearings during that period were, I suspect, not listened to 
closely enough and did not get the attention they deserved. 
That obviously will not be the case today.
    In recent weeks we have seen the country move closer to war 
with Iraq, North Korea taking steps toward resuming the 
production of nuclear weapons, increased threats by al-Qa'ida 
in dimensions that we can only imagine, and, meanwhile, poverty 
and desperation, a subject which I want to discuss a little bit 
this morning, continue to spread in most parts of the world. 
Polling data shows increased hostility to the U.S. in many 
regions, especially in the Middle East. Europe seems to be 
splitting. NATO is in at least some form of public relations 
disaster if not deeper than that.
    So the American people obviously have to look to you. You 
are not policymakers in the classic sense, but you create 
policy by the excellence of your intelligence and the work that 
you do--I am talking about our witnesses.
    Given the many threats that we are faced with from North 
Korea to al-Qa'ida, to Iranian support for terrorism--and the 
list goes on endlessly--we clearly need to understand why Iraq 
has risen to prominence to the point where we are contemplating 
an invasion and a longer presence there to help rehabilitate 
the country.
    With that in mind, there are four questions that I would 
pose, and you can answer if you choose: What is the purpose of 
Iraq's WMD programs? That would be the first one. Are they 
intended first and foremost to try to secure the regime's 
survival and deter attacks from the United States and from 
other countries? Or does the evidence suggest that Saddam 
intends to become a supplier of weapons of mass destruction to 
terrorist organizations, even if he has not been in the past? 
And, on that subject, he has not in the past generally been a 
supplier. So what reason do we have to believe that the past is 
not prologue and that his habits may change? What evidence is 
there, to the extent that you can talk about that?
    Secondly, many observers of the Middle East, including many 
friends and allies, believe that the administration's fears 
regarding terrorism, WMD, weapons of mass destruction, and Iraq 
will become a self-fulfilling prophecy if the United States 
invades Iraq. Clearly, once an invasion begins Saddam will have 
nothing to lose. Moreover, many of our allies fear that an 
invasion of Iraq, especially one which proceeds without 
explicit U.N. authorization, if that's the way it turns out, 
will further radicalize and inflame the Muslim community, 
swelling the ranks, and therefore the recruiting grounds, for 
terrorist groups for years and years to come.
    In that context, some analysts suspect that Usama bin Ladin 
is eagerly anticipating a U.S. invasion of Iraq. In short, do 
you believe a U.S. invasion of Iraq will in fact increase, in 
spite of testimony which has already been given, the terrorist 
threat to the United States and the nuances of that?
    Third, as you know, a serious proposal has recently been 
advanced that appears to offer an alternative--alternative 
passive inspections, outright inspections, sort of a little bit 
more militarized and intense inspections by some of our NATO 
allies. And that involves U.N. authorization for much expanded 
inspection to compel Iraq to comply with U.N. Resolution 1441. 
What is your assessment of this compromise, if you feel you are 
in a position to give that? Could an expanded force succeed in 
disarming or causing regime change prior to a war? I'm 
skeptical myself, but that doesn't matter. I'm interested in 
what you think; you're the professionals. If you have not 
performed an assessment of this, then I think the committee 
would be interested in hearing nevertheless what your thoughts 
would be in written form.
    Finally, we need your best assessment of the costs and 
duration and risks associated with American presence in Iraq, 
should there be a war, after the war. I think we will agree 
that it doesn't make a lot of sense to invade Iraq and then 
walk away from it, if we are not willing to undertake the 
costly and painstaking work required to help rebuild the 
country and put it on a path to a better future. Seven years 
and billions of dollars later, we still have troops in Bosnia. 
Our commitment continues to exist and even expand in Kosovo. 
Our financial commitment to Afghanistan is expanding, and there 
is no end in sight to our military presence. In sum, we hope 
that you can help us to understand the likely cost and duration 
and any other consequences of the commitment we would need to 
take in Iraq should we invade Iraq.
    I thank you for appearing. I thank you for your service. 
And to you, Mr. Tenet, you have my profound and all of our 
American people's profound sympathies for the duties that you 
and John McLaughlin will do this afternoon in attending the 
funeral service of one of your members.
    Thank you, Mr. Chairman.
    Chairman Roberts. I thank the distinguished Senator from 
West Virginia and the Vice Chairman.
    We will now go to the witnesses in the following order: the 
DCI, George Tenet; the Director of the FBI, Robert Mueller; 
Admiral Jacoby, who is the head of the DIA; and Assistant 
Secretary Ford.
    Gentlemen, I feel compelled to say that most Senators can 
read. All staff can read. Staff can then read to Senators and 
they, for the most part, can understand. Please feel free to 
read each and every word of your statement. Let me emphasize 
that each and every word will be made part of the record. If 
you so choose to summarize in your own words so eloquently as 
you have done in the past, to make your statement somewhat 
shorter, that would be allowed.
    Please proceed, George.
    [The prepared statement of Director Tenet follows:]

    [GRAPHIC] [TIFF OMITTED] T9797A.001
    
    [GRAPHIC] [TIFF OMITTED] T9797A.002
    
    [GRAPHIC] [TIFF OMITTED] T9797A.003
    
    [GRAPHIC] [TIFF OMITTED] T9797A.004
    
    [GRAPHIC] [TIFF OMITTED] T9797A.005
    
    [GRAPHIC] [TIFF OMITTED] T9797A.006
    
    [GRAPHIC] [TIFF OMITTED] T9797A.007
    
    [GRAPHIC] [TIFF OMITTED] T9797A.008
    
    [GRAPHIC] [TIFF OMITTED] T9797A.009
    
    [GRAPHIC] [TIFF OMITTED] T9797A.010
    
    [GRAPHIC] [TIFF OMITTED] T9797A.011
    
    [GRAPHIC] [TIFF OMITTED] T9797A.012
    
    [GRAPHIC] [TIFF OMITTED] T9797A.013
    
    [GRAPHIC] [TIFF OMITTED] T9797A.014
    
    [GRAPHIC] [TIFF OMITTED] T9797A.015
    
    [GRAPHIC] [TIFF OMITTED] T9797A.016
    
    [GRAPHIC] [TIFF OMITTED] T9797A.017
    
    [GRAPHIC] [TIFF OMITTED] T9797A.018
    
 STATEMENT OF THE HONORABLE GEORGE TENET, DIRECTOR OF CENTRAL 
                          INTELLIGENCE

    Director Tenet. Undaunted. I'll read a little bit, sir.
    Thank you, Mr. Chairman. Mr. Chairman, last year in the 
wake of the September 11 attack on our country, I focused my 
remarks on the clear and present danger posed by terrorists who 
seek to destroy who we are and what we stand for.
    The national security environment that exists today is 
significantly more complex than a year ago. I can tell you that 
the threat from al-Qa'ida remains, even though we have made 
important strides in the war on terrorism. Secretary of State 
Powell clearly outlined last week the continuing threats posed 
by Iraq's weapons of mass destruction, its efforts to deceive 
U.N. inspectors, and the safe haven that Baghdad has allowed 
for terrorists in Iraq.
    North Korea's recent admission that it has a highly-
enriched uranium program, intends to end the freeze on its 
plutonium production facilities, and has stated its intention 
to withdraw from the Nonproliferation Treaty raises serious new 
challenges for the region and the world. At the same time, we 
cannot lose sight of those national security challenges that, 
while not occupying space on the front pages, demand a constant 
level of scrutiny.
    Challenges such as the world's vast stretches of ungoverned 
areas, lawless zones, veritable no man's lands, like some areas 
along the Afghan-Pakistani border, where extremist movements 
find shelter and can win the breathing space to grow. 
Challenges such as the numbers of societies and peoples 
excluded from the benefits of an expanding global economy, 
where the daily lot is hunger, disease, and displacement, 
produce large populations of disaffected youth who are prime 
recruits for our extremist foes.
    Mr. Chairman, as you know, the United States last week 
raised the terrorist threat level. We did so because of the 
threat reporting from multiple sources with strong al-Qa'ida 
ties. The information we have points to plots aimed at targets 
on two fronts--in the United States and on the Arabian 
Peninsula. It points to plots timed to occur as early as the 
end of the Hajj, which occurs late this week. And it points to 
plots that could include the use of a radiological dispersal 
device, as well as poisons and chemicals. The intelligence is 
not idle chatter on the part of terrorists or their associates. 
It is the most specific we have seen, and it is consistent with 
both our knowledge of al-Qa'ida's doctrine and our knowledge of 
plots this network and particularly its senior leadership has 
been working on for years.
    The intelligence community is working directly and in real 
time with friendly services overseas and with our law 
enforcement colleagues here at home to disrupt and capture 
specific individuals who may be part of this plot. Our 
information and knowledge is the result of important strides we 
have made since September 11 to enhance our counterterrorism 
capabilities and to share with our law enforcement colleagues--
and they with us--the results of disciplined operations, 
collection, and analysis of events inside the United States and 
overseas.
    Raising the threat level is important to our being as 
disruptive as we possibly can be. The enhanced security that 
results from a higher level of threat can buy us more time to 
operate against the individuals who are plotting to do us harm. 
And heightened vigilance generates additional information and 
leads. This latest reporting underscores the threat that the 
al-Qa'ida network continues to pose to the United States. The 
network is extensive and adaptable. It will take years of 
determined effort to unravel this and other terrorist networks 
and stamp them out.
    Mr. Chairman, the intelligence and law enforcement 
communities aggressively continue to prosecute the war on 
terrorism, and we are having success on many fronts. More than 
one third of the top al-Qa'ida leadership identified before the 
war has either been killed or captured, including the 
operations chief for the Persian Gulf area who planned the 
bombing of the USS Cole, a key planner who was a Mohammad 
Atta's confidant and a conspirator in the 9/11 attacks, a major 
al-Qa'ida leader in Yemen, and key operatives and facilitators 
in the Gulf area and other regions, including South Asia and 
Southeast Asia.
    The number of rounded-up al-Qa'ida detainees has now grown 
to over 3,000, up from 1,000 or so when I testified last year. 
And the number of countries involved in these captures has 
almost doubled to more than one hundred. Not everyone arrested 
was a terrorist. Some have been released. But the worldwide 
rousting of al-Qa'ida has definitely disrupted its operations, 
and we've obtained a trove of information we're using to 
prosecute the hunt still further.
    The coalition against international terrorism is stronger, 
and we are reaping the benefits of unprecedented international 
cooperation. In particular, Muslim governments today better 
understand the threat al-Qa'ida poses to them and day by day 
have been increasing their support. Ever since Pakistan's 
decision to sever ties with the Taliban, so critical to the 
success of Operation Enduring Freedom, Islamabad's close 
cooperation in the war on terrorism has resulted in the capture 
of key al-Qa'ida lieutenants and significant disruption of its 
regional network.
    Jordan and Egypt have been courageous leaders in the war on 
terrorism. I can't say enough about what Jordan has done for 
this country in taking on this scourge.
    A number of Gulf states, like the United Arab Emirates, are 
denying terrorists financial safe haven, making it harder for 
al-Qa'ida to funnel funding for operations. Others in the Gulf 
are beginning to tackle the problem of charities that front for 
or fund terrorism. The Saudis are providing increasingly 
important support to our counterterrorism efforts--from arrests 
to sharing debriefing results. Southeast Asian countries like 
Malaysia and Indonesia, with majority Muslim populations, have 
been active in arresting and detaining terrorist suspects. And 
we mustn't forget Afghanistan, where the support of the new 
leadership is absolutely essential. Al-Qa'ida's loss of 
Afghanistan, the death and capture of key personnel, and its 
year spent mostly on the run have impaired its ability, 
complicated its command and control, and disrupted its 
logistics.
    That said, Mr. Chairman, the continuing threat remains 
clear. Al-Qa'ida is still dedicated to striking the U.S. 
homeland, and much of the information we've received in the 
past year revolves around that goal. Even without an attack on 
the U.S. homeland, more than 600 peoplearound the world were 
killed in acts of terror last year, and 200 in al-Qa'ida related 
attacks--19 were U.S. citizens. Al-Qa'ida or associated groups carried 
out a successful attack in Tunisia and since October 2002 attacks in 
Mombasa, Bali, Kuwait, and off Yemen against the French oil tanker 
Limburg. Most of these attacks bore such al-Qa'ida trademarks as 
entrenched surveillance, simultaneous strikes, and suicide-delivered 
bombs.
    Combined U.S. and allied efforts have thwarted a number of 
related attacks in the past year, including the European poison 
plots. We identified, monitored, and arrested Jose Padilla, an 
al-Qa'ida operative who was allegedly planning operations in 
the United States and was seeking to develop a so-called dirty 
bomb. And along with Moroccan partners we disrupted al-Qa'ida 
attacks against U.S. and British warships in the Straits of 
Gibraltar.
    Until al-Qa'ida finds an opportunity for the big attack, it 
will try to maintain its operational tempo by striking softer 
targets. And what I mean by ``softer,'' Mr. Chairman, are 
simply those targets al-Qa'ida planners may view as less well 
protected. Al-Qa'ida has also sharpened its focus on our allies 
in Europe and on operations against Israeli and Jewish targets. 
Al-Qa'ida will try to adapt to changing circumstances as it 
regroups. It will secure base areas so that it can pause from 
flight and resume planning. We place no limitations on our 
expectations on what al-Qa'ida might do to survive.
    We see disturbing signs that al-Qa'ida has established a 
presence in both Iran and Iraq. In addition, we are concerned 
that al-Qa'ida continues to find refuge in the hinterlands of 
Pakistan and Afghanistan. Al-Qa'ida is also developing or 
refining new means of attack, including the use of surface-to-
air missiles, poisons, and air and surface and underwater 
methods to attack maritime targets. If given the choice, al-
Qa'ida terrorists will choose attacks that achieve multiple 
objectives--striking prominent landmarks, inflicting mass 
casualties, causing economic disruption, and rallying support 
through shows of strength. The bottom line here, Mr. Chairman, 
is that al-Qa'ida is living in the expectation of resuming the 
offensive.
    We know from the events of September 11 that we can never 
again ignore a specific type of country--a country unable to 
control its own borders and internal territory, lacking the 
capacity to govern, educate its people, or provide fundamental 
societal services. Such countries can, however, offer 
extremists a place to congregate in relative safety. Al-Qa'ida 
is already a presence in many parts of the world, Mr. Chairman, 
and I'll stop my discussion on terrorism there, where I go on 
to a very careful discussion of our concerns about their 
acquisition of chemical and biological weapons and what the 
history shows.
    I want to move to Iraq, sir, and then China and Iran and 
I'll get out. There's a lot in my statement, and you can read 
it. Mr. Chairman, I'd like to comment on Iraq, and I will come 
back and answer Senator Rockefeller's questions as best I can.
    Last week Secretary Powell carefully reviewed for the U.N. 
Security Council the intelligence we have on Iraqi efforts to 
deceive U.N. inspectors, its programs to develop weapons of 
mass destruction, and its support for terrorism. I do not plan 
to go into these matters in detail, but I will summarize some 
of the key points.
    Iraq has in place an active effort to deceive U.N. 
inspectors and deny them access. The effort is directed at the 
highest levels of the Iraqi regime. Baghdad has given clear 
directions to its operational forces to hide banned materials 
in their possession. Iraq's BW program includes mobile research 
and production facilities that will be difficult, if not 
impossible, for the inspectors to find. Baghdad began this 
program in the mid '90s, during a time when U.N. inspectors 
were in the country.
    Iraq has established a pattern of clandestine procurements 
designed to reconstitute its nuclear weapons program. These 
procurements include but go well beyond the aluminum tubes that 
you have heard so much about. Iraq has recently flight-tested 
missiles that violate the U.N. range limit of 150 kilometers. 
They have tested unmanned aerial vehicles to ranges that far 
exceed both what it declared to the United Nations and what it 
is permitted under U.N. resolutions.
    Iraq is harboring senior members of a terrorist network led 
by Abu Musab al-Zarqawi, a close associate of al-Qa'ida. We 
know Zarqawi's network was behind the poison plots in Europe, 
and we discussed earlier as well--Secretary Powell discussed--
the assassination of a U.S. State Department employee in 
Jordan.
    Iraq has in the past provided training in document forgery 
and bomb-making to al-Qa'ida. It has also provided training in 
poisons and gases to two al-Qa'ida associates. One of these 
associates characterized the relationship he forged with Iraqi 
officials as successful.
    Mr. Chairman, this information is based on a solid 
foundation of intelligence. It comes to us from credible and 
reliable sources. Much of it is corroborated by multiple 
sources. And it is consistent with the pattern of denial and 
deception exhibited by Saddam Hussein over the past 12 years.
    Mr. Chairman, on proliferation, it's important to talk 
about this for a few moments. We have entered a new world of 
proliferation. In the vanguard of this new world, we are 
knowledgeable about non-state purveyors of WMD materials and 
technology. Such non-state outlets are increasingly capable of 
providing technology and equipment that previously could only 
be supplied by countries with established capabilities. This is 
taking place side by side with the continued weakening of the 
international non-proliferation consensus. Control regimes like 
the NPT Treaty are being battered by developments such as North 
Korea's withdrawal from the NPT and its open repudiation of 
other agreements.
    The example of new nuclear states that seem able to deter 
threats from more powerful states simply by brandishing nuclear 
weaponry will resonate deeply among other countries that want 
to enter the nuclear weapons club. Demand creates the market. 
The desire for nuclear weapons is on the upsurge. Additional 
countries may decide to seek nuclear weapons as it becomes 
clear their neighbors and regional rivals are already doing so. 
The domino theory of the 21st century may well be nuclear. With 
the assistance of proliferators, a potentially wider range of 
countries may be able to develop nuclear weapons by leap-
frogging the incremental pace of weapons programs in other 
countries.
    Mr. Chairman, my statement on proliferation is far more 
extensive, talking about developments of chemical and 
biological weapons, threats from ballistic missiles, land 
attack cruise missiles, and UAVs. I will want to talk briefly 
about North Korea.
    The recent behavior of North Korea regarding its long-
standing nuclear weapons program makes apparent all the dangers 
Pyongyang poses to its region and the world. This includes 
developing a capability to enrich uranium, ending the freeze on 
its plutonium production facilities, and withdrawing from the 
Nonproliferation Treaty. If, as seems likely, Pyongyang moves 
on to reprocess spent fuel at the facilities where it recently 
abrogated the 1994 IAEA-monitored freeze, we assess it could 
recover sufficient plutonium for several additional weapons. 
North Korea also continues to export complete ballistic 
missiles and production capabilities, along with related raw 
materials, components and expertise.
    Kim Jong-ll's attempts this past year to parlay the North's 
nuclear weapons program into political leverage suggests that 
he is trying to negotiate a fundamentally different 
relationship with Washington, one that implicitly tolerates 
North Korea's nuclear weapons program. Although Kim calculates 
that the North's aid, trade and investment climate will never 
improve in the face of U.S. sanctions and perceived hostility, 
he is equally committed to retaining and enlarging his nuclear 
weapons stockpiles.
    Mr. Chairman, I go through an interesting discussion of 
China, Russia and Iran. Perhaps we can come back to those 
during the question and answer period. I would note the one 
area of the world thatcontinues to worry us, as we worry about 
all these other problems, is South Asia, where we've averted a conflict 
but soon could return to one, and it's something that we may want to 
talk about but continues to bear careful scrutiny.
    The statement goes through a number of transnational 
threats, Mr. Chairman, and I want to talk about something 
untraditional. You know we recently published an NIE, an open 
NIE, on AIDS. I want to talk about HIV/AIDS because it has 
national security implications beyond health implications.
    This pandemic continues unabated, and last year more than 
three million people died of AIDS-related causes. More than 40 
million people are infected now, and southern Africa has the 
greatest concentration of these cases. That said, the 
intelligence community recently projected that by 2010 we may 
see as many as 100 million HIV-infected people outside of 
Africa. China will have about 15 million cases and India, 20 to 
25 million cases. And cases are on the rise in Russia as well.
    The national security dimension of the virus is plain. It 
can undermine economic growth, exacerbate social tensions, 
diminish military preparedness, create huge social welfare 
costs, and further weaken beleaguered states. And the virus 
respects no border.
    We rarely talk about Africa, Mr. Chairman, but it's 
important. Sub-Saharan Africa's chronic instability will demand 
U.S. attention. Africa's lack of democratic 
institutionalization, combined with its pervasive ethnic rifts 
and deep corruption, render most of the 48 countries vulnerable 
to crises that can be costly in human lives and economic 
growth. The Cote D'Ivoire is collapsing, and its crash will be 
felt throughout the region, where neighboring economies are at 
risk from the falloff in trade and from refugees fleeing 
violence.
    Mr. Chairman, I'll end my statement there. There's a 
discussion about Venezuela and Colombia we may want to pursue 
in the questions and answers. And I thank you for your 
patience, and I've set a new standard for not reading my whole 
statement.
    Chairman Roberts. It's an excellent standard and a 
marvelous precedent. Director Mueller.
    [The prepared statement of Director Mueller follows:]

    [GRAPHIC] [TIFF OMITTED] T9797A.019
    
    [GRAPHIC] [TIFF OMITTED] T9797A.020
    
    [GRAPHIC] [TIFF OMITTED] T9797A.021
    
    [GRAPHIC] [TIFF OMITTED] T9797A.022
    
    [GRAPHIC] [TIFF OMITTED] T9797A.023
    
    [GRAPHIC] [TIFF OMITTED] T9797A.024
    
    [GRAPHIC] [TIFF OMITTED] T9797A.025
    
    [GRAPHIC] [TIFF OMITTED] T9797A.026
    
    [GRAPHIC] [TIFF OMITTED] T9797A.027
    
    [GRAPHIC] [TIFF OMITTED] T9797A.028
    
    [GRAPHIC] [TIFF OMITTED] T9797A.029
    
    [GRAPHIC] [TIFF OMITTED] T9797A.030
    
    [GRAPHIC] [TIFF OMITTED] T9797A.031
    
  STATEMENT OF THE HONORABLE ROBERT S. MUELLER III, DIRECTOR, 
                FEDERAL BUREAU OF INVESTIGATION

    Director Mueller. Thank you, Mr. Chairman.
    As we enter the second year of the global war on terrorism, 
the United States and its allies have inflicted a series of 
significant defeats on al-Qa'ida and its terrorist networks, 
both here at home and abroad. The terrorist enemy, however, is 
far from defeated. Although our country's ultimate victory is 
not in doubt, we face a long war whose end is difficult to 
foresee.
    Accordingly, the prevention of another terrorist attack 
remains the FBI's top priority. The Bureau's efforts to 
identify and dismantle terrorist networks have yielded 
successes over the past 17 months. We have charged 197 
suspected terrorists with crimes, 99 of whom have been 
convicted to date. We have also facilitated the deportation of 
numerous individuals with suspected links to terrorist groups. 
Moreover, our efforts have damaged terrorist networks and 
disrupted terrorist-related activities across the country--in 
Portland, in Buffalo, in Seattle, in Detroit, in Chicago, and 
in Florida, to name but a few. Furthermore, we have 
successfully disrupted the sources of terrorist financing, 
including freezing $113 million from 62 organizations and 
conducting 70 investigations, 23 of which have resulted in 
convictions.
    But despite these successes, the nature of the terrorist 
threat facing our country today is exceptionally complex. 
International terrorists and their state sponsors have emerged 
as the primary threat to our security, after decades in which 
the activities of domestic terrorist groups were a more 
imminent threat.
    And the al-Qa'ida terrorist network is clearly the most 
urgent threat to U.S. interests. The evidence linking al-Qa'ida 
to the attacks of September 11 is clear and irrefutable. And 
our investigation of the events leading up to 9/11 has given 
rise to important insights into terrorist tactics and 
tradecraft which will prove invaluable as we work to prevent 
the next attack.
    There is no question, though, that al-Qa'ida and other 
terrorist networks have proven adept at defending their 
organizations from U.S. and international law enforcement 
efforts. As these terrorist organizations evolve and change 
their tactics, we too must be prepared to evolve. Accordingly, 
the FBI is undergoing substantial changes, including the 
incorporation of an enhanced intelligence function that will 
allow us to meet these terrorist threats. I'd like to briefly 
outline these changes, but first, Mr. Chairman, I'd like to 
address the most significant threats facing this country today.
    We start with the al-Qa'ida threat. The al-Qa'ida network 
will remain for the foreseeable future the most immediate and 
serious threat facing this country. Al-Qa'ida is the most 
lethal of the groups associated with the Sunni jihadist cause, 
but it does not operate in a vacuum. Many of the groups 
committed to international jihad offer al-Qa'ida varying 
degrees of support. FBI investigations have revealed Islamic 
militants in the United States, and we strongly suspect that 
several hundred of these extremists are linked to al-Qa'ida. 
The focus of their activity centers primarily on fundraising, 
recruitment and training. Their support structure, however, is 
sufficiently well developed that one or more groups could be 
mobilized by al-Qa'ida to carry out operations in the United 
States homeland.
    Despite the progress the United States has made in 
disrupting the al-Qa'ida network overseas and within our own 
country, the organization maintains the ability and the intent 
to inflict significant casualties in the United States with 
little warning. Our greatest threat is from al-Qa'ida cells in 
the United States that we have not yet been able to identify. 
Finding and rooting out al-Qa'ida members once they have 
entered the United States and have had time to establish 
themselves is our most serious intelligence and law enforcement 
challenge.
    But in addition, the threat from single individuals 
sympathetic or affiliated with al-Qa'ida, acting without 
external support or surrounding conspiracies, is increasing. 
Al-Qa'ida's successful attacks on September 11 suggest the 
organization could employ similar operational strategies in 
carrying out any future attack in the United States, including 
those cell members who avoid drawing attention to themselves 
and minimize contact with militant Islamic groups in the United 
States. They also maintain, as we have found in the past, 
strict operational and communications security.
    We must not assume, however, that al-Qa'ida will rely only 
on tried and true methods of attack. As attractive as a large-
scale attack that produces mass casualties would be for al-
Qa'ida, and as important as such an attack is to its 
credibility amongst its supporters and its sympathizers, target 
vulnerability and the likelihood of success areincreasingly 
important to the weakened organization. Indeed, the types of recent 
smaller scale operations al-Qa'ida has directed, and aided against a 
wide array of Western targets outside the United States could be 
readily reproduced within the United States.
    I'll tell you, Mr. Chairman, my greatest concern is that 
our enemies are trying to acquire dangerous new capabilities 
with which to harm Americans. Terrorists worldwide have ready 
access to information on chemical, biological, radiological, 
and nuclear weapons via the Internet. Acquisition of such 
weapons would be a huge morale boost for those seeking our 
destruction while engendering widespread fear among Americans 
and amongst our allies.
    Although the most serious terrorist threat is from non-
state actors, we remain vigilant against the potential threat 
posed by state sponsors of terrorism. Seven countries 
designated as state sponsors of terrorism--Iran, Iraq, Syria, 
Sudan, Libya, Cuba, and North Korea--remain active in the 
United States and continue to support terrorist groups that 
have targeted Americans.
    As Director Tenet has pointed out, Secretary Powell 
presented evidence last week that Baghdad has failed to disarm 
its weapons of mass destruction, willfully attempting to evade 
and deceive the international community. Our particular concern 
is that Saddam Hussein may supply terrorists with biological, 
chemical, or radiological material.
    Let me turn, if I could, Mr. Chairman, to some of the 
changes that we've brought about within the Bureau in the last 
year.
    For nearly a century, the FBI has earned a well-deserved 
reputation as one of the world's premier law enforcement 
agencies, and for decades the FBI has remained flexible in 
addressing the threats facing the nation at any given time--
whether it be gangsters, civil rights violations, racketeering, 
organized crime, espionage, and, of course, terrorism. Since 
September 11, 2001, the men and women of the FBI have 
recognized the need for change and have embraced it. I assure 
this Committee and the American people that, just as the FBI 
earned its reputation as a world class law enforcement agency, 
so is it committed to becoming a world class intelligence 
agency. As evidence of that commitment, Mr. Chairman, I would 
like to spend a moment outlining some of the specific steps we 
have taken to address the terrorist threats facing the United 
States today.
    To effectively wage this war against terror, we have 
augmented our counterterrorism resources and are making 
organizational enhancements to focus our priorities. On top of 
the resource commitment to counterterrorism we made between 
1993 and 2001, we have received additional resources from 
Congress. We have as well shifted internal resources to 
increase our total staffing levels for counterterrorism by 36 
percent. Much of this increase has gone towards enhancing our 
analytical cadre.
    We have implemented a number of initiatives, including 
creating the College of Analytical Studies which, in 
conjunction with the CIA is training our new intelligence 
analysts. We also have created a corps of reports officers. 
These officers will be responsible for identifying, extracting 
and collecting intelligence from FBI investigations and sharing 
that information throughout the FBI and to other law 
enforcement and intelligence agencies.
    I have taken a number of other actions which we believe 
will make the FBI a more flexible, more responsive agency in 
our war against terrorism. To improve our systems for threat 
warnings, we have established a number of specialized 
counterterrorism units. These include a threat monitoring unit, 
which among other things works hand in hand with its CIA 
counterpart to produce a daily threat matrix; a 24-hour 
counterterrorism watch to serve as the FBI's focal point for 
all incoming terrorist threats; two separate units to analyze 
terrorist communications and special technologies and 
applications; another section devoted entirely to terrorist 
financing operations; a unit to manage document exploitation--
whether the documents come from Afghanistan or Pakistan or 
elsewhere around the world; and other such units. And to 
protect U.S. citizens abroad, we have expanded our legal 
attache and liaison presence around the world to 46 offices.
    To strengthen our cooperation with state and local law 
enforcement, we are introducing counterterrorism training on a 
national level. We will provide specialized counterterrorism 
training to 224 agents and training technicians from every 
field division in the country so that they in turn can train an 
estimated 26,800 federal, state and local law enforcement 
officers this year in basic counterterrorism techniques.
    To further enhance our relationship with state and local 
agencies, we have expanded the number of joint terrorism task 
forces from a pre-9/11 number of 35 to 66 today. The joint 
terrorism task forces partner FBI personnel with hundreds of 
investigators from various federal, state and local agencies in 
field offices across the country and are important force 
multipliers aiding our fight against terrorism within the 
United States.
    The counterterrorism measures I have just described 
essentially complete the first phase of our intelligence 
program. We are now beginning the second phase that will focus 
on expanding and enhancing our ability to collect, analyze and 
disseminate intelligence. The centerpiece of this effort is the 
establishment of an Executive Assistant Director for 
Intelligence, who will have direct authority and responsibility 
for the FBI's national intelligence program.
    Specifically, the Executive Assistant Director for 
Intelligence will be responsible for ensuring that the FBI has 
the optimum strategies, structure, and policies in place, first 
and foremost for our counterterrorism mission. That person will 
also oversee the intelligence programs for our 
counterintelligence, criminal and our cyber divisions. Lastly, 
in the field, intelligence units will be established in every 
office and will function under the authority of the Executive 
Assistant Director for Intelligence.
    If we are to defeat terrorists and their supporters, a wide 
range of organizations must work together. I am committed to 
the closest possible cooperation with the intelligence 
community and with other government agencies, as well as with 
state and local agencies--and I should not leave out our 
counterparts overseas. I strongly support the President's 
initiative to establish a terrorist threat integration center 
that will merge and analyze terrorist-related information 
collected domestically and abroad.
    Mr. Chairman, let me conclude by saying that the nature of 
the threats facing the United States homeland continues to 
evolve. My complete statement, which has been submitted for the 
record, emphasizes that we are not ignoring the serious threat 
from terrorist organizations other than al-Qa'ida, from 
domestic, home-grown terrorists, and from foreign intelligence 
services. To successfully continue to address all of these 
threats, the FBI is committed to remaining flexible enough to 
adapt our mission and our resources to stay one step ahead of 
our enemies.
    Thank you, Mr. Chairman, for the opportunity to make this 
statement.
    Chairman Roberts. Thank you, Mr. Director. Let the record 
show that all members of the Committee have been provided a 
list of FBI entities that have been created to address the 
terrorist threat since 9/11, 2001, and I would certainly 
recommend that to my colleagues and to all present.
    Admiral, you're next.
    [The prepared statement of Admiral Jacoby follows:]

    [GRAPHIC] [TIFF OMITTED] T9797A.032
    
    [GRAPHIC] [TIFF OMITTED] T9797A.033
    
    [GRAPHIC] [TIFF OMITTED] T9797A.034
    
    [GRAPHIC] [TIFF OMITTED] T9797A.035
    
    [GRAPHIC] [TIFF OMITTED] T9797A.036
    
    [GRAPHIC] [TIFF OMITTED] T9797A.037
    
    [GRAPHIC] [TIFF OMITTED] T9797A.038
    
    [GRAPHIC] [TIFF OMITTED] T9797A.039
    
    [GRAPHIC] [TIFF OMITTED] T9797A.040
    
    [GRAPHIC] [TIFF OMITTED] T9797A.041
    
    [GRAPHIC] [TIFF OMITTED] T9797A.042
    
    [GRAPHIC] [TIFF OMITTED] T9797A.043
    
    [GRAPHIC] [TIFF OMITTED] T9797A.044
    
    [GRAPHIC] [TIFF OMITTED] T9797A.045
    
    [GRAPHIC] [TIFF OMITTED] T9797A.046
    
    [GRAPHIC] [TIFF OMITTED] T9797A.047
    
    [GRAPHIC] [TIFF OMITTED] T9797A.048
    
    [GRAPHIC] [TIFF OMITTED] T9797A.049
    
  STATEMENT OF VICE ADMIRAL LOWELL E. JACOBY, USN, DIRECTOR, 
                  DEFENSE INTELLIGENCE AGENCY

    Admiral Jacoby. Thank you, Mr. Chairman. My more detailed 
statement for the record addresses a number of substantive 
threats and concerns, many of which were covered by Director 
Tenet in his opening statement. I look forward to further 
discussions on those subjects during the question-and-answer 
session to follow.
    What I'd like to do with these brief opening remarks is 
give my perspective on the state of defense intelligence today 
and outline plans for transforming our capabilities, personnel 
and processes to better address the security--the very quickly-
changing security environment.
    As I said in my written statement, defense intelligence is 
at war on a global scale, and all of our resources, people and 
systems are completely engaged. I would also note, Mr. 
Chairman, that the two members of your staff that you 
recognized at the beginning of the hearing are representative 
of a tremendous number of intelligence reservists who are 
serving and have served and are still to be called to support 
these efforts.
    Given the current state of the world and the likely future, 
I expect that these conditions will continue indefinitely. 
We're committed in support of our military forces fighting the 
war on terrorism in Afghanistan and other locations, such as 
the southern Philippines, where that war might take us. We 
support our military forces deployed worldwide, even as they 
increasingly are targeted by terrorists.
    As you know, Mr. Chairman, detailed intelligence is 
essential long before our forces actually deploy. This effort, 
termed intelligence preparation of the battle space, has been 
ongoing for many months to support potential force deployment 
in Iraq. Meanwhile, other defense intelligence resources are 
committed to a careful assessment of the dangerous situation on 
the Korean peninsula.
    Beyond these obvious priorities, defense intelligence is 
providing global awareness, meaning that we are watching every 
day for developments that might be of concern or might require 
U.S. military employment. These situations include such varying 
things as internal instability and the threat of coups that 
could require evacuation of American citizens, and interdiction 
of shipments and material associated with weapons of mass 
destruction.
    We recognize that we must know something about everything 
or are expected to know something about everything, and that is 
a daunting task when we're already at war on a global scale. 
Our prolonged high level of commitment is straining personnel, 
equipment and resources and is reducing capacity for sustaining 
activities such as training, education, data-base maintenance 
and longer-term research and analysis.
    I'm increasingly concerned that defense intelligence is 
being stretched too thin and we have no choice but to sacrifice 
important longer-term efforts to respond to today's 
requirements. These longer-term efforts include weapons 
proliferation, instability in several key states and regions, 
and assessments with respect to Russia, China, South Asia, 
parts of Europe, Latin America and the Middle East.
    The old defense intelligence threat paradigm, which focused 
primarily on the military capabilities of a small set of 
potential adversary states, no longer applies. More 
importantly, today's concerns are not lesser-included cases. In 
the emerging environment, traditional concepts of security, 
deterrence, intelligence, warning and military superiority are 
not adequate. We must adapt our capabilities to these new 
conditions just as potential adversaries pursue new ways to 
diminish our overwhelming power.
    While the challenges facing us are daunting, I am 
enthusiastic about the opportunity we have to fundamentally 
change our defense intelligence capabilities. Defense 
intelligence transformation will be the center point of my 
tenure as Director.
    To be successful, we must move out in a number of areas. 
First, we must improve our analytic capabilities. We must be 
able to rapidly convert information into knowledge. That is 
what we pay our analysts to do, and we must ensure that they 
have immediate access to all sources of data and are supported 
by cutting-edge information technologies.
    To be successful, we must shift our collection paradigm 
from reconnaissance to surveillance, discard the notion that 
the collectors own the information they collect, and create a 
collection strategy that ensures all relevant capabilities--
national, theater, tactical and commercial--are developed and 
applied as a system of systems to ensure targeted, intrusive 
and persistent access to an adversary's true secrets.
    We also must field information management tools that 
encompass the best commercial-sector practices and 
applications.
    Finally, recognizing that knowledge in the heads of our 
people is our most precious commodity, we must recruit, train 
and retain intelligence professionals with the right mix of 
experience, skills, abilities and motivations. The importance 
of the human dimension will only increase as our reliance on 
judgment and predictive analysis is challenged by an 
increasingly ambiguous security environment and significantly 
larger quantities of information.
    We're working hard to address these issues and to develop 
the processes, techniques and capabilities necessary to address 
the current threat and deal with emerging challenges. With your 
continued support, I'm confident we'll be able to provide our 
warfighters, policymakers and planners assured access to the 
intelligence they need.
    Thank you, Mr. Chairman. I look forward to the question 
session.
    Chairman Roberts. Okay, we thank you, Admiral.
    And now we look forward to the statement by Assistant 
Secretary Ford.
    [The prepared statement of Mr. Ford follows:]

    [GRAPHIC] [TIFF OMITTED] T9797A.050
    
    [GRAPHIC] [TIFF OMITTED] T9797A.051
    
    [GRAPHIC] [TIFF OMITTED] T9797A.052
    
    [GRAPHIC] [TIFF OMITTED] T9797A.053
    
    STATEMENT OF THE HONORABLE CARL W. FORD, JR., ASSISTANT 
        SECRETARY OF STATE FOR INTELLIGENCE AND RESEARCH

    Mr. Ford. Thank you, Mr. Chairman. I would very much 
appreciate just simply putting my testimony into the record and 
moving on to the question and answers.
    Chairman Roberts. Are you sure you're feeling all right? 
[Laughter.]
    Mr. Ford. Yes, sir.
    Chairman Roberts. All right, we thank you very much for 
your cooperation.
    The order of questions is as follows, with a five-minute 
time period, the Chair, the Vice Chair Senator Rockefeller, 
Senator Warner, the distinguished Chairman of the Armed 
Services Committee, Senator Levin, Senator Bond, Senator 
Feinstein, Senator DeWine--and while I mention Senator DeWine, 
I want to thank him for accompanying me in visiting six or 
seven of the 13 agencies where we hope we are learning more, 
and we can really feel some shortfalls in terms of the assets 
that we see them--Senator Chambliss, Senator Snowe, Senator 
Mikulski and Senator Lott.
    Let me start with Bob Mueller. Bob, I got a call this 
morning about 10 minutes before I came to the hearing room from 
my wife. And she indicated--she said, ``Dear, what did you do 
with the duct tape and the plastic sheet that used to cover the 
El Camino?''
    And I was quoting an article on the front page of the 
localnewspaper, the fountain of all knowledge in Washington, and it's 
down on the left-hand side--I think you've read it--where some nameless 
official indicated that people should start collecting bottled water, 
food and duct-tape one particular area of their home, and also have 
plastic sheeting. She was quite concerned that as Chairman of the 
Intelligence Committee, I didn't tell her to do this prior to this 
event.
    And we've heard a lot of news about the increased dangers 
of the terrorist attacks; all three of you--all four of you; 
Secretary Ford's statement. And I know this has really 
disturbed many Americans, and I suspect many members of the 
public are wondering what they can or should do in light of the 
increased danger.
    So what advice would you offer to the man or woman on the 
street, other than to get out of the street?
    Director Mueller. I would start, I believe, Mr. Chairman, 
by saying we have to put this in perspective, that we are in a 
period of heightened risk based on intelligence, and we will go 
through additional periods like this in the future.
    I do believe that our day-in, day-out life has changed 
since September 11. We do have a heightened risk of attack from 
terrorist organizations, most particularly al-Qa'ida. And 
during certain periods, we believe--and this is one of them--
there is a heightened risk of an attack, both overseas and in 
the United States.
    By saying that, we also must indicate our belief that 
Americans should go about their business, not cancel plans that 
they had, because we have no specifics as to the particular 
places or timing, but that we all should be more alert. Rarely 
does a day go by that we do not get a call from a concerned 
citizen who has seen something out of the ordinary, that has 
called a police department or has called the FBI and said this 
is a little bit out of the ordinary; perhaps you ought to look 
at this.
    And on several occasions, and probably more than several 
occasions, those alert citizens have brought to our attention 
individuals or patterns of activity that have led us to take 
action that would lessen the risk in a particular community or 
in the United States. And so, while we're in this period of 
heightened risk, it is important for each of us to be more 
alert than we ordinarily would be, but not to change our 
patterns.
    Chairman Roberts. I thank you for your response. George, do 
you have anything to add to that?
    Director Tenet. Sir, the only thing I would say is that the 
strategic targeting doctrine of this organization is well 
understood by us. And as a consequence, translating that 
document to homeland security and Governor Ridge in terms of 
protective measures that specific sectors of the country have 
to undertake to make them more immune to the attack, and to do 
this on a consistent basis, and to make marked improvement over 
time, is the most important thing we can be doing.
    How they think and what they think about targets, what 
they've previously tried to do, and their planning, as a result 
of an enormous amount of work, we have a lot of data. We have 
to beat them to the punch in terms of narrowing their 
approaches and narrowing the availability of targets and 
infrastructure that give them the mass-casualty symbolic impact 
that they will try to achieve. All the while you're dealing 
with softer targets. And there's where--Bob's right--your 
vigilance and your awareness pays a price.
    But the strategic concept we have to bear in mind is, we 
shouldn't focus on date, time and place of an event. We should 
be focused on our strategic knowledge of their targeting 
doctrine and buttoning up the country systematically so that, 
over the course of time, raising alert levels become more and 
more effortless, less painful for people because all of these 
sectors have responded accordingly and are taking measures and 
building into the security of the country over time.
    Chairman Roberts. I have 30 seconds left. I think, in the 
interest of time, I'm going to yield to the distinguished Vice 
Chairman.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman. This 
question could be for Mr. Tenet, the Admiral or the Secretary. 
One posits that if we go into Iraq, that a regime change will 
not be enough and that the follow-up is what will really tell 
the story for the future.
    Now, there are several positions put forward. One is that 
if we stabilize the country, that would be good. Another is 
that if we stabilize the country, that will speak to the rest, 
or at least a large part of the rest of the Arab world, to say 
that we're not in it for our own colonialization, domination, 
but we're in it because we're trying to bring a better way of 
life to that part of the world.
    And there's a third position which has been expressed, and 
that is that we can do that--in fact, we can do that in several 
countries--but there will always be an element in the radical 
world which will discount whatever we do and which will 
continue to come after us as if we had done nothing at all. I'd 
be interested in any of your points of view.
    Director Tenet. Senator, the speed with which, if you want 
to talk about a post--if there's a conflict, a post-conflict 
environment, the speed with which the infrastructure of the 
country is stood up, the speed with which food supplies, health 
supplies and the speed with which you make a transition to a 
group of Iraqis to run this country all are enormously 
important.
    There are three major groups--Shi'as, who account for about 
60 percent or 65 percent of the population of this country; 
Sunnis, who may be about less than 20 percent; and the Kurds--
who all have to be integrated in some way in some kind of 
confederated structure that allows equal voices to emerge. But 
the speed with which you can get to those points will, I think, 
make a big impact on the rest of the Arab world.
    I am not one who believes that--you asked a question about 
is terrorism from al-Qa'ida more likely, for example. Al-Qa'ida 
and terrorist groups are going to launch their terrorist 
attacks at dates and times and places of their choosing, based 
on operational security matters. Naturally, he would be 
interested in the propaganda windfall of tying it to an Iraq, 
but that's not how al-Qa'ida operates on a day-to-day basis.
    You may never get credit from other parts of the world, and 
I don't want to be expansive in, you know, a big domino theory 
about what happens in the rest of the Arab world, but an Iraq 
whose territorial integrity has been maintained, that's up and 
running and functioning, that is seen to be functioning in a 
different manner outside the rubric of a brutal regime, may 
actually have some salutary impact across the region.
    But every country is different and everybody's got 
different views about their own internal situation, but it may 
well create some dynamic and interesting forces that, quite 
frankly, I can't predict to you. But there may be some positive 
things that come out of it.
    Vice Chairman Rockefeller. Mr. Director, or Admiral or 
Secretary.
    Admiral Jacoby. Senator, I think the three things you hit 
all have to be done, and they probably could be done 
simultaneously to stabilize the country. We may have quite a 
bit of infrastructure damage inflicted by the regime 
potentially creating humanitarian assistance, particularly in 
the South, against the Shi'a population.
    At the same time, the longer sort of effects and direction 
of the country are dependent on freeing up the Iraqi people to 
bring their energy to bear on putting in place a better way of 
life, which would be obviously tied back quite directly to the 
stabilization piece.
    And the third part is, sir, I would have no expectation 
that the radical elements elsewhere, particularly the 
fundamentalist elements elsewhere in the world, would in any 
way alter their views based on this set of circumstances. 
That's obviously a longer-term war that we're engaged in that's 
based on factors other than specifically the post-regime period 
in Iraq.
    Vice Chairman Rockefeller. Mr. Tenet.
    Director Tenet. Senator, just one more point. I want 
toreturn to the territorial integrity point and the unified nature that 
must be maintained. Every country that surrounds Iraq has an interest 
in what the political end game is.
    The country cannot be carved up. If the country gets carved 
up and people believe they have license to take parts of the 
country for themselves, that will make this a heck of a lot 
harder. This country must remain whole and integrated, and 
while these three groups----
    Vice Chairman Rockefeller. I understand, Mr. Tenet. But my 
point was to try to establish that even if we do all these 
things correctly, there will still probably be a fundamental 
terrorist element which would be unaffected even as we do a 
superb job, if we do, in bringing stabilization and growth to 
that country.
    Director Tenet. We will not impact al-Qa'ida's calculation 
against the United States, Senator.
    Vice Chairman Rockefeller. Thank you.
    Chairman Roberts. The distinguished Chairman of the Armed 
Services Committee, Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I recognize the 
strong leadership this Committee now has and commend both of 
you with your responsibilities.
    Director Mueller, the question this morning raised by the 
Chairman--he utilized the report about the duct tape and so 
forth--well, I take that seriously in all respects, and I think 
it was a conscientious decision by our administration to set 
that out publicly.
    But here's what concerns me. When the public sees that, 
they say to themselves, well, do we have in place today the 
laws that are necessary to enable law enforcement, principally 
yourself, to search out these terrorists and apprehend them?
    Now, is the administration contemplating any further 
legislation to strengthen the Foreign Intelligence Surveillance 
Act or modify the Patriot Act?
    Director Mueller. Well, there are discussions ongoing, I 
know, in the Department of Justice relating to changes in the 
FISA Act. And, in fact, there have been some bills that were 
suggested in the last Congress which would address several of 
the problems that were left unaddressed when the Patriot Act 
was passed, one being, as an example, our problem in having to 
prove that an individual was an agent of a foreign power where 
we have individuals who may not have ties to a particular 
recognized organization, whether it be al-Qa'ida or a nation-
state, and yet still presents a threat to the United States and 
still presents a threat of a terrorist attack.
    Senator Warner. So, in summary, there is a package being 
worked on by the administration, and it is for the purpose of 
strengthening the existing laws. And, in your judgment, does 
that represent some further invasion of our rights to privacy 
and exercise of freedom as individual citizens, which 
compromise may have to be made in view of the continuing and 
rising threat situation?
    Director Mueller. Well, with regard to what has been 
suggested as modifications to the FISA Act, I do not believe 
that that would be undermining the privacy of our citizens at 
all and is a much-needed improvement to the FISA Act. There may 
be other pieces of legislation that are currently under 
discussion that I am not fully aware of.
    And as each of those pieces of legislation is reviewed, I 
know that both we in the Bureau, but most particularly in the 
Department of Justice, we look to balance the impact of that 
particular piece of legislation on privacy rights with how it 
would better enable us to address terrorism in the United 
States.
    Senator Warner. In a short sentence, in your own personal 
professional assessment of the laws as they exist today, do 
they need to be strengthened, in your judgment, to enable you 
and others in law enforcement to protect our citizens?
    Director Mueller. Certain of them do.
    Senator Warner. Thank you. Director Tenet, this morning we 
heard another statement from a foreign country--I believe 
France in this case--to the effect that they don't even think 
Saddam Hussein possesses weapons of mass destruction. I'm not 
here to attach credibility to that statement.
    We also saw a poll early this morning--at least I did--
where in Great Britain they're anticipating the largest turnout 
in the streets of anti-war demonstrations; in fact, several of 
us on the Armed Services Committee yesterday had a question-
and-answer session with British parliamentarians here in the 
Senate.
    All this leads me to the following question. I support the 
President and I anticipate I will continue to support the 
President. But there seems to be a gap widening in Europe, and 
perhaps somewhat here at home. But in my judgment, we cannot 
postpone any longer the non-compliance of Iraq, even though, 
bit by bit, they're saying they'll do certain things. I think 
there comes a time when this situation has to be addressed, and 
if diplomacy fails, force must be used.
    In the event that force is used, and after the dust settles 
and the world press and others can go in and assess the 
situation, is it your judgment that there will be clearly 
caches of weapons of mass destruction which will dispel any 
doubt with regard to the fair and objective analysis that the 
United States and such other nations that have joined in the 
use of force did the right thing at the right time?
    Director Tenet. Sir, I think we will find caches of weapons 
of mass destruction, absolutely.
    Senator Warner. And such diminution of our credibility, 
which we've maintained for these 200-plus years as a nation not 
to use a preemptive type of strike--I don't think it's 
preemptive; others do, so we have to do that--that can be 
reconciled and that credibility restored to the extent it's 
diminished. Do you believe that?
    Director Tenet. Sir, I'm not going to make policy 
judgments. I'll stick to what my job is and focus on the 
intelligence.
    Chairman Roberts. The distinguished Senator's time has 
expired.
    Senator Warner. I thank the Chair.
    Chairman Roberts. The distinguished Senator from Michigan 
is recognized.
    Senator Levin. Thank you, Mr. Chairman. Admiral Jacoby has 
made the following statement in his written presentation, 
Director Tenet, and I am wondering if you agree, that 
Pyongyang's open pursuit of additional nuclear weapons is the 
most serious challenge to U.S. regional interests in a 
generation. The outcome of this current crisis will shape 
relations in Northeast Asia for years to come. Do you agree 
with that statement?
    Director Tenet. Yes, sir, it's very serious.
    Senator Levin. I think it's really useful that at least our 
intelligence community is willing to describe the problem with 
North Korea as a crisis. The administration has avoided that 
word. They've said it's not a crisis. And the fact that our 
intelligence community describes it accurately as a crisis, it 
seems to me, is at least a beginning of a fair assessment of 
how serious that is.
    Director Tenet, in early January we started sharing with 
U.N. inspectors intelligence on sites in Iraq that we have 
suspicions about. I assume that we are sharing information with 
all the limitations of inspections, because our intelligence 
community believes that U.N. inspections have value--at least 
there's a possibility that those inspections would provide 
evidence of the presence of weapons of mass destruction or of 
Iraqi deception, or of violations of the resolutions of the 
United Nations. Do you agree that there is some value to those 
inspections?
    Director Tenet. Sir, there's value in these inspections so 
long as the partner in these inspections, Saddam Hussein, 
complies with U.N. resolutions. And thus far he has been 
singularly uncooperative in every phase of this inspection 
process.
    Senator Levin. What you are saying is they have no value 
then unless he cooperates, that there's no chance that they 
will find evidence of weapons of mass destruction, even without 
his cooperation?
    Director Tenet. Sir, unless he provides the data to build 
on, provides the access, provides the unfettered access that 
he's supposed to, provides us with surveillance capability, 
there's little chance you are going to find weapons of mass 
destruction under the rubric he's created inside the country. 
The burden is on him to comply and us to do everything we can 
to help the inspectors. But the inspectors have been put in a 
very difficult position by his behavior.
    Senator Levin. Have they been given unfettered access?
    Director Tenet. By Saddam Hussein?
    Senator Levin. Yes.
    Director Tenet. Sir, I don't know in real-time. Everything 
that happens on every inspection----
    Senator Levin. As far as you know, were they given 
unfettered access?
    Director Tenet. I don't believe so, sir.
    Senator Levin. All right. Now, we have only shared a small 
percentage of the sites so far that we have suspicions about. I 
am going to use the word ``small percentage'' because I am not 
allowed to use the actual numbers of sites that you have 
suspicions about. I am not allowed to use the actual number of 
sites that we have shared with the U.N. inspectors. All I'm 
allowed to say is that there has been a ``small percentage'' of 
sites that we have shared the information with the inspectors. 
My question to you is: When will we be completing the sharing 
of information with the U.N. inspectors?
    Director Tenet. Sir, we have given the U.N. inspectors and 
UNMOVIC every site that we have that is of high or moderate 
value, where there is proven intelligence to lead to a 
potential outcome--every site we have.
    Senator Levin. Would you say what percentage of the sites 
that we have on our suspect list that you have put out in that 
estimate we have----
    Director Tenet. Sir, the--I'm sorry, sir. I apologize.
    Senator Levin. Would you give us the approximate percentage 
of the sites that we have in your classified National 
Intelligence Estimate that we have shared information on with 
the U.N. inspectors, just an approximate percentage?
    Director Tenet. I don't remember the number.
    Senator Levin. Just give me an approximation.
    Director Tenet. I don't know, but let me just--can I just 
comment on what you said, sir?
    Senator Levin. Would you agree it's a small percentage?
    Director Tenet. Well, sir, there is a collection priority 
list that you are aware of, and there is a number that you 
know. And this collection priority list is a list of sites that 
we have held over many, many years. The vast majority of these 
sites are low priority and against which we found little data 
to direct these inspectors. All I can tell you is we have given 
them everything we have and provided every site at our 
disposal, and we cooperate with our foreign colleagues to give 
them--we have held nothing back from sites that we believe, 
based on credible intelligence, could be fruitful for these 
inspections.
    Senator Levin. I just must tell you that is news. That is a 
very different statement than we have received before.
    Director Tenet. Sir, I was briefed last night, and I think 
that we owe you an apology. I don't know that you have gotten 
the full flavor of this. But in going through this last night, 
I can tell you with confidence that we have given them every 
site.
    Senator Levin. Now, Mr. Tenet, another question relative to 
al-Qa'ida's presence in Iraq. Does al-Qa'ida have bases in 
Iraq?
    Director Tenet. Sir, you know that there is--there's two 
things that I would say.
    Senator Levin. And would you summarize it by saying al-
Qa'ida has bases in Iraq?
    Director Tenet. Sir----
    Senator Levin. That is, the part of Iraq that is controlled 
by Saddam?
    Director Tenet. Sir, as you know--first of all, as you know 
by Secretary--well, we won't get into northern Iraq, but I can 
tell you this. Bases, it's hard for me to deal with, but I know 
that part of this--and part of this Zarqawi network in Baghdad 
are two dozen Egyptian Islamic Jihad, which is 
indistinguishable from al-Qa'ida, operatives who are aiding the 
Zarqawi network, and two senior planners who have been in 
Baghdad since last May. Now, whether there is a base or whether 
there is not a base, they are operating freely, supporting the 
Zarqawi network that is supporting the poisons network in 
Europe and around the world.
    So these people have been operating there. And, as you 
know--I don't want to recount everything that Secretary Powell 
said, but as you know a foreign service went to the Iraqis 
twice to talk to them about Zarqawi and were rebuffed. So there 
is a presence in Baghdad that is beyond Zarqawi.
    Chairman Roberts. The Senator's time has expired.
    Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman. It's a 
pleasure to be joining this Committee at a very interesting and 
challenging time.
    There was a question--I would like to address the question 
to Director Tenet and Admiral Jacoby. There was a question 
asked earlier on whether the invasion of Iraq would increase 
the threat of weapons of mass destruction terrorist attacks in 
the United States. And I believe Director Tenet has given an 
answer. My question would be: What is the danger of an attack 
with weapons of mass destruction by terrorists if we continue 
with the hide-and-seek game and the proposed actions given by 
our French and German brave allies and leave Saddam Hussein in 
control of both caches and means of creating more weapons of 
mass destruction? Director Tenet would you, or Admiral Jacoby, 
wish to share your opinion?
    Director Tenet. Sir, let me just differentiate for a 
moment. You know al-Qa'ida has an independent means it has 
developed inside of Afghanistan. It's in my classified 
statement--you can take a look at the BW, CW, and even interest 
in nuclear capabilities. So that's quite something they have 
been pursuing and we are trying to get on top of around the 
world. So there's an ongoing concern with or without.
    The concern, of course, that Secretary Powell enumerated in 
his speech at the U.N. was the concern that there have been 
some contacts, that there has been some training provided by 
the Iraqis--this according to a senior detainee that we have in 
our custody. So how expansive that is beyond that, sir, I want 
to stick to the evidence and the facts that we have, but we are 
living in a world where proliferation of these kinds of 
materials to second parties and third parties, and then their 
subsequent transition to terrorist groups is obviously a 
separate issue we have to be very careful about.
    Admiral Jacoby. My follow-up would be, sir, obviously al-
Qa'ida independently was pursuing these kinds of capabilities. 
And in my mind there are sort of two tracks running 
simultaneously, and the one track is sort of an independent al-
Qa'ida WMD threat that probably operates on their timeline, 
their planning, their access to materials, and is independent 
of the discussion about the Iraqi contingency operation.
    Senator Bond. Admiral, in your written statement--and other 
statements--you've mentioned the challenges facing allies in 
Southeast Asia, Malaysia, Indonesia and other countries have 
beeninvolved in--actually Indonesia has obviously had a very 
serious and deadly terrorist attack. I would like your assessment, 
number one, of the importance of relationships with our friendly 
governments in the region which are subjected to the presence of 
terrorists.
    Number two, there has been an effort to impose sanctions on 
Indonesian military activity such as cutting off IMET and other 
military exchanges. I have some very strong views on that. I 
would like to know your views as to whether these are effective 
means for remedying what we see as shortcomings or do you think 
these Congressional initiatives may have the danger of 
disrupting these institutions and further lessening our ability 
to maintain a defense in the area?
    Admiral Jacoby. Senator Bond, obviously our relationships 
with these countries are extremely important, and I would only 
point to the operations and the cooperation, bilateral work 
that was done in the southern Philippines as an example with 
the Abu Sayyaf group. I mean, I think it demonstrates the 
capability and mutual effects of working together.
    Without getting into the policy part on the IMET slice, I 
would just say that my observation over time in dealings with 
my counterparts in other countries is that those who have had 
the opportunity to interact with Americans, whether it's in our 
schools or other kinds of fora, then become very good partners 
down the road when they have the opportunity to make decisions. 
I think it's desperately important that we keep those kinds of 
ties in place wherever we can.
    Senator Bond. Thank you, Mr. Chairman.
    Chairman Roberts. The distinguished Senator from California 
is recognized.
    Senator Feinstein: Thank you very much, Mr. Chairman.
    Admiral Jacoby, let me thank you for your written 
statement. You didn't mention it in your oral remarks, but one 
thing really jumps out to me. Because it's brief, I want to 
read it. You say, ``The prolonged Israeli-Palestinian conflict 
is furthering anti-American sentiment, increasing the 
likelihood of terrorism directed at United States interests, 
increasing the pressure on moderate Middle East regimes, and 
carries with it the potential for wider regional conflict, with 
each side determined to break the other's will. I see no end to 
the current violence.''
    It seems to me that this is our greatest omission of 
putting that crisis on the back burner and not moving it 
forward to resolution. And I am just going to leave you with 
that. But I want to thank you for putting it in your statement.
    Mr. Mueller, I want to thank you for your robust steps to 
move your department into counterterrorism and specifically 
domestic intelligence gathering. I think you've taken real 
action, and I am just delighted to see it.
    Mr. Tenet, I also want to thank you. I had the privilege of 
going to your agency on Friday, and had an excellent briefing 
from a number of people, some of whom I see here this morning. 
And I thank you for that. And also I know you have been working 
very long hours along with Mr. Mueller and others, and I 
appreciate that.
    Let me begin with this question: What is the Agency's best 
estimate of the survival and whereabouts of Usama bin Ladin?
    Director Tenet. Senator, I don't think I'm going to get 
into all that in open session.
    Senator Feinstein. I will ask you that question this 
afternoon.
    Director Tenet. I would be pleased to respond.
    Senator Feinstein. Fine. Thank you very much. Perhaps I can 
ask one that you might be willing to answer. In the past you 
have mentioned on several occasions that the A Team of 
terrorists is Hizbollah. Putting aside capability, could you 
comment upon their assessment of their plans and intentions, 
whether they represent a domestic threat, whether there are 
signs of them increasing their activities in the Middle East, 
and what you believe would trigger a greater involvement in the 
United States?
    Director Tenet. I will let Director Mueller talk about the 
United States. Of course this is a very capable organization 
that the Iranians have backed for a long time. It's a 
particularly difficult organization because of their feeding 
relationship with the Palestinian Islamic Jihad, Hamas and 
others who have directed terrorist attacks against Israelis for 
many years. They have a worldwide presence. We see them 
actively casing and surveiling American facilities. They have 
extensive contingency plans that they have made, Senator. We 
haven't seen something directed against us in a long time--that 
would be a decision they make based on their own internal 
calculation.
    But this is certainly a group that warrants our continued 
attention around the world because of their capability. And 
truthfully, Senator, one of the things we have to be mindful of 
and be very alert to is how all of these groups mix and match 
capabilities, swap training, use common facilities. So the days 
when we made distinctions between Shi'ites and Sunnis and 
fundamentalists and secularists in the terrorism world are 
over.
    Senator Feinstein. I wanted to ask you a question, and this 
has been asked many times of us now by the press. Hopefully you 
can answer some of this in this session. When Secretary Powell 
laid out the information about the camps in northeastern Iraq, 
I wondered how long we have known about it, how we found 
evidence, the people coming and going from it with the innuendo 
that they were moving poisonous materials. And if all of that 
is true, there is abundant authority, if it is a threat to us, 
to take out that camp. Why in fact did we not do that?
    Director Tenet. Senator, that's a policy question that I 
shouldn't answer. And, you know, I don't want to comment on 
what plans or contingencies were in place, what was considered 
or not considered, but that's something you may want to come 
back to with some other people and not me.
    Senator Feinstein. Can you publicly comment on the level of 
intelligence, whether it's--the nature of the specific 
intelligence that indicated----
    Director Tenet. Yes, ma'am.
    Senator Feinstein. [continuing]. the poison factories?
    Director Tenet. I believe that we have a compelling 
intelligence story based on multiple sources that we have high 
confidence in understanding this network, how it's operated in 
Europe, the connections that Secretary Powell talked about. 
It's something that we obviously will talk to you more about 
this afternoon in terms of----
    Senator Feinstein. But let me narrow it down. It's not just 
British intelligence?
    Director Tenet. No, ma'am.
    Senator Feinstein. It's our own specific intelligence?
    Director Tenet. That would be correct. That would be 
correct.
    Chairman Roberts. The time of the distinguished Senator has 
expired. Let me say for the benefit of Members that next is 
Senator DeWine, and then Senators Chambliss, Snowe, Mikulski, 
Lott and Edwards. The distinguished Senator from Ohio.
    Senator DeWine. Thank you, Mr. Chairman. Director Mueller, 
thank you very much for supplying us with this two-page 
summary. I think it is a very good summary of what you have 
done, the FBI, has created to address the terrorist threat. I 
would commend it to my colleagues in the Senate.
    You have talked about what the FBI is doing to attempt to 
reform itself and really change the overall direction. To play 
the devil's advocate for the moment, there are some people, 
Director, as you know, who believe that the FBI never really 
will be able to make that transformation, and that you can't do 
domestic intelligence. And I knowyou and I have talked about 
this, and of course you believe that you can make that. Let me ask you 
a couple questions.
    One, can you describe for us how well the computer upgrade 
process is going? The computer system at the FBI has been a 
mess, very antiquated. How much is it going to cost to upgrade 
it? How long is that upgrade going to take?
    Director Mueller. We started the essential upgrading of our 
computer system by bringing the team on board of former CIOs, 
individuals from private industry who have gone through this 
process before. And we, over the last year, have been lucky to 
recruit a number of individuals who, regardless of the salary 
they are paid, want to serve their country. Rather than just 
the one or two individuals who have been in the industry 
before, we have upwards of 15 who are shepherding our upgrade 
in technology. And having that team on board was absolutely 
essential.
    With regard to the hardware, we have put in over 20,000 
desktops and computers over the last year to give us the 
capability at the desktops, with Pentiums as opposed to 386s or 
486s. Critical to our improvement is having the local area 
networks and, more importantly, the wide area networks, the 
bandwidth to exchange information, and the very technically 
challenging networks that are necessary should be in place by 
the end of March.
    We have over 600 points around the country that have to be 
served by these networks and we expect those to be done by the 
end of March. Our principal software application called Virtual 
Case File, which is being developed by a number of agents as 
well as contractors, should be on board and on everybody's desk 
by December.
    Senator DeWine. Which is quite an exciting prospect, as 
you've explained it to me. My time is very limited. When do you 
think that will be up?
    Director Mueller. It will be up in December.
    Senator DeWine. That will be up in December.
    Director Mueller. November and December.
    Senator DeWine. And the total cost for this will be what, 
do you think?
    Director Mueller. I would have to check the figures. It's 
several hundreds of millions of dollars, but I would want to be 
specific. I can get you, quite obviously, the total cost.
    Senator DeWine. And this whole process should be completed 
by when?
    Director Mueller. Well, it's an ongoing process. The bulk 
of it will be completed by December of this year. But what we 
wanted to do was put into place computer and information 
technology that won't serve us just in the next six months or 
the next year, but put in place technology that can be upgraded 
yearly. So, it will be an ongoing process. But the bulk of it I 
expect to be done by December of this year.
    Senator DeWine. Director, for those critics who say that 
you can't make this transformation, when is a fair time for us 
to, as the oversight committee, to look back and say--to make 
the judgment of whether you have made the transformation or 
not?
    Director Mueller. I think it's----
    Senator DeWine. This is a tremendous sea change for the 
FBI.
    Director Mueller. I think in some respects it is, and in 
other respects it is not. I think it's fair to ask what have we 
done since September 11. I think the Bureau, the agents, have 
always had the collection capabilities, and indeed have been 
some of the best collectors of information in the world.
    What we have lacked in the past is the analytical 
capability, both in terms of the analysts as well as the 
information technology. And we have since September 11 almost 
doubled the number of analysts. We have developed a College of 
Analytical Studies. George Tenet has helped us with 25 analysts 
to help us in the meantime on the analytical capability of the 
Bureau. The analytical capability will be much enhanced by 
having the databases, the analytical tools with which to search 
those databases, and I would expect by the end of the year 
we'll be much enhanced.
    But the fact of the matter is, since September 11 I think 
every individual in the Bureau understands that it is of 
foremost importance that the Bureau protect the United States 
against another terrorist attack. And that mind shift came as 
of September 11. And the Bureau, I believe, has welcomed the 
opportunity to meet this new challenge, as it has in the past 
met previous challenges.
    Senator DeWine. Thank you, Director, very much.
    Chairman Roberts. The Senator who has the privilege of 
representing the nation's number one football team has expired. 
[Laughter.]
    I would now like to recognize Senator Chambliss. And I 
would like to say for the benefit of committee members, having 
served with Senator Chambliss in the House of Representatives 
and watched him closely on his service on our House counterpart 
committee, it was Senator Chambliss and Congressperson Jane 
Harman who the Speaker of the House appointed to form up a 
select committee on homeland security. He brings to the 
committee a great deal of expertise. We are very happy to have 
him on board. Senator, you are recognized.
    Senator Chambliss. Thank you, Mr. Chairman. And even though 
we finished third in rankings, we'll be there next year. 
[Laughter.]
    Gentlemen, as all of you know, a main focus of my work over 
on the House side over the last two years has been on the issue 
of information sharing. And I don't want to get into any of 
that now because I'm going to continue to pound this issue with 
you every time we get together.
    Bob, I see you've got--I know you're putting this bulletin 
out every week. I think that's a major step in the right 
direction. I hope it's not old news by the time it gets down to 
the state and local level. There is still a feeling out there, 
I will tell you, among local law enforcement officials about 
some hesitancy on the part of your field officers to dialogue 
with them on a regular basis, and we've still got some 
overcoming to do there. But I commend you on making the effort 
to make this dialogue more open.
    The other comment I want to make before I get to my 
question, George, you alluded to this in your statement with 
reference to the connection between al-Qa'ida and Iraq. I felt 
like that was the weakest part of the argument that Secretary 
Powell was going to be able to make last week, and I was, 
frankly, pleased to see that he came forward as much as he did 
with the Zarqawi pronouncement.
    Your statement today with respect to the Egyptian Jihadists 
who are operating openly in Iraq I think it just adds to the 
evidence there that there is a direct link between not just al-
Qa'ida and Saddam Hussein but the entire terrorist community 
and Saddam Hussein. I think that that particular issue, in and 
of itself, is going to be the most sensitive issue that we've 
got to deal with because we know that those weapons are right 
there, we know that the terrorist community is there.
    Do they have their hands on these weapons, and are they 
going to use them? I think that's something that frankly I'm 
going to want to talk with you a little bit more about this 
afternoon.
    I want to ask you a question, though, that I get asked at 
home. And I hope you can all comment on this. That is, once 
again, Senator Warner alluded earlier to the statements that 
were made in the paper again today by some of our colleagues in 
other parts of the world, heads of other countries, relative to 
their not being convinced there are weapons of mass destruction 
in Iraq. They're obviously not on board with the full force 
that our President is. I know our President is right. We all 
know our President is right.
    We all know that there is a relationship in the 
intelligence community between each of your organizations and 
your counterpart in France, in Germany, in Russia, and in every 
other country. Is there something we know that they don't know? 
Are we not sharing information with them? Why would these 
countries not be as strong as we are, because the evidence is 
almost overwhelming? And if there is some lack of information 
sharing there, we need to know that. And I'd appreciate the 
comment of each of you on that issue.
    Director Tenet. Sir, I don't know the answer precisely. I 
will say that we produced a white paper that became a matter of 
public knowledge. The British produced a white paper. The 
Secretary of State has laid out a fairly exhaustive case at the 
United Nations. I know that we talk to our counterparts, so 
there is an enormous amount of data that flows back and forth. 
I can't take you farther than that, sir.
    Senator Chambliss. So, the answer to the question is that 
the information that we have has been freely and openly 
disseminated with our supposed allies around the free world?
    Director Tenet. Sir, we have provided a great deal of 
information to everybody on this case, and that's as far as I 
can take it.
    Senator Chambliss. Has there been any attitude or do you 
notice any hesitation on the part of any of those countries 
with respect to the information that we've given them?
    Director Tenet. I just can't comment on that, sir. I don't 
know.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Roberts. The Senator from Maine is recognized. 
Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman, and thank you all 
for your testimony here today.
    Obviously the purpose of this hearing is to measure the 
extent to which we have made progress, particularly in the 16 
months since September 11, and whether or not there are systems 
in place to make America safer and to prevail in the war on 
terrorism. And towards that end, I'd like to have you discuss 
to some extent about how the information sharing is working.
    I was concerned to read that a senior official from the 
White House indicated that much of the information sharing that 
is occurring between the FBI and CIA is on an informal basis 
and by brute force. And I would like to know whether or not we 
have made significant improvements. I know the President has 
recommended the terrorist threat integration center, which I 
think is a great idea and a move in the right direction, but is 
that going to become operational sooner rather than later? To 
what extent has urgency been applied to making this functional 
and making sure the information is flowing in all directions, 
vertically and horizontally?
    To that point as well, on Friday I happened to be at the 
Portland, Maine Airport, and I was talking to the federal 
security director, who had heard at 11:00 on CNN that there 
would be an announcement about raising the alert level to code 
orange. And the attorney general's press conference was going 
to be at 12:30. So he hears about it on CNN an hour-and-a-half 
before the Attorney General is going to have a press 
conference, two hours before he will receive an official 
directive. I also talked to some federal law enforcement 
officials as well as local who had the same experience.
    And I'm just hoping that we are in a better position to 
disseminate this information than the way we're doing it, 
especially when we're talking about the second highest alert 
and the second time it has been instituted. And also because 
security conditions maybe have to be attached to that, and 
these officials need to know first and foremost. So, we're 
saying to wait and watch it on TV. And I just hope that we can 
improve upon this system.
    And I mention that to you today to ensure that that doesn't 
happen, but also to know where we are in information sharing, 
because last week, before the code orange alert was issued--now 
these media reports may not be entirely accurate, but it seems 
to me that there are a lot of questions as to whether or not to 
even issue the alert. And I know, Director Tenet, you said that 
this chatter was significant, but I gather it wasn't specific 
enough to encourage the alert. And where were you both in terms 
of whether or not this alert should be issued?
    Director Tenet. Well, I think it's fair to say that, with 
regard to the issuance of alert, we were both--we both believed 
that this was something that should be done. I mean, this is a 
story that's been pieced together. It was very specific and 
credible information. It was sourced well. There were multiple 
sources. So, I think from Bob's and my perspective, we had to 
issue this alert.
    We made our case. Obviously, the Director of Homeland 
Security and the Attorney General make the policy decisions, 
but from where we sat, putting us at a heightened state of 
alert, being disruptive, throwing people off their feet, 
generating additional operational opportunities in this 
environment is important.
    Now, people will come back and say, Senator, well, if it 
doesn't happen in this time period, what does that mean? It's 
really irrelevant to the point of there was enough credible 
data that takes us to a time period and it increases our 
vigilance, and we have a plot line that we will continue to run 
and follow. So, I think--Bob can speak for himself--but we were 
both in the same place.
    Director Mueller. We absolutely were both in the same 
place, both of us, both institutions having access to the same 
intelligence. And the intelligence was not just foreign 
intelligence but also domestic intelligence. And I believe we 
draw the same conclusions as to the necessity of raising the 
alert based on our common understanding of that intelligence. 
And this process, I think speaks volumes about the information 
sharing capabilities now as opposed to before September 11.
    When a situation like this comes along, not only do our 
individual offices exchange information that is culled from our 
investigations within the United States but also information 
that comes from the intelligence community overseas. But also, 
as this process goes along, we--individually and together--
discuss the import of the intelligence and what steps should be 
taken as a result of that intelligence.
    I will also say that the process goes on daily. In other 
words, once the alert is raised, every day we look at it and 
look at those underpinnings or those threads of intelligence 
that led us to believe that the alert should be raised to 
determine whether or not the time has changed and that things 
have changed significantly enough so that the alert should be 
reduced to the lower level.
    Director Tenet. I'd say, Senator, the FBI has done a great 
job of playing off what we provided and then giving it back to 
us in a real operational, real-time transparency on all this 
has been exemplary. So, you know, I would say that we're making 
steady and important progress on data sharing. The Director's 
got an important initiative there in terms of digital 
communications, the packaging of data, the sending it forward. 
And I think it's going to get better and better. But we have a 
very important and seamless lash-up today that's going to get 
stronger over the course of time with the reforms that Bob has 
put in place and things we're trying to do with our law 
enforcement colleagues.
    Chairman Roberts. The Senator's time has expired. Senator 
Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    First, to everyone at the table, I know that with us being 
on such a high alert--and actually we've been on a high alert 
for a long time; we just got the color called orange--I just 
know that under all the professional demeanor at this table the 
emotional stress that you're underas you're working so hard to 
try to protect our country, and we want to say that to everybody who 
works for you, we know what you're going through. And I just want to 
say thank you.
    Director Tenet. Thank you, ma'am.
    Senator Mikulski. And in terms of the coordination, you 
know, we've already been in a high alert several weeks ago; it 
was called the sniper attacks. And, first of all, Mr. Tenet, 
Mr. Mueller, and all other agencies that were involved, I want 
to say, as the Senator from Maryland, first of all, thank you. 
The coordination in the federal government with local law 
enforcement was outstanding in the way it worked, the way we 
could find the sniper, the way we could track down the killer 
with every federal agency doing what it needed to do, the way 
we were able to work with the local law enforcement, and also 
to be sure that this was not an international threat.
    So, we don't need to go into the mechanics, but I believe 
that what was done there was really a model of communication 
and cooperation, not only in finding the killers but also the 
way you worked with the local government, and also managed the 
fear. And I thank Mr. Duncan, Mr. Moose, Agent Bald, the ATF.
    So, having said that, let me then go now to agent--agent 
orange. I feel like it's agent orange, there is such a toxic 
atmosphere. With the threats that have been announced, the 
question is now what should Americans do? There is a great 
anxiety here in the capital region about what we've heard in 
the media--you know, tape up your windows, et cetera, buy your 
water--to what is happening with the local law enforcement.
    And I wonder if, Mr. Mueller, you could comment on this, 
which is, number one, given this threat now, what is the FBI 
doing in terms of working with the locals? Using other examples 
now as models, what more could we be doing? Because while 
you're doing the threat assessment and communicating the 
information, the response needs to be local, and also the 
vigilance needs to be local--whether it's the Baltimore City 
Police Department, whether it's the Department of Natural 
Resources Police policing the bay around Calvert Cliffs, our 
nuclear power plant, along with our Coast Guard. What could you 
share with me about what's being done and how we could also 
improve it, and also do it in other parts of the country? But 
I'll tell you, your agent Gary Bald was really prime time.
    Director Mueller. Well, thank you.
    Senator Mikulski. And all the agents.
    Director Mueller. I do believe that, when it comes to 
information sharing, that is yet another example of how we are 
changing as an organization and better utilizing our joint 
capabilities--and by joint capabilities I mean the capabilities 
of the federal law enforcement with state and local.
    When it comes to responding to the threat, last Friday we 
sent out another what we call another what we call NLETS with a 
package of suggestions in terms of what might be done to 
additionally harden potential targets. Through our joint 
terrorism task forces, we work closely with state and local law 
enforcement to identify potential targets in the region and to 
assure that those who are responsible for the security of those 
targets understand the threat alert and harden their 
facilities.
    As we go through this process of looking at whether or not 
to raise the alert, we try again through our joint terrorism 
task forces to keep them apprised of the intelligence that is 
coming in. Some of it, quite obviously, is very sensitive in 
terms of sources and methods, but we keep the joint terrorism 
task forces generally alerted.
    I will tell you that whenever we have a threat to a 
particular place, we immediately put that threat out to the 
joint terrorism task force and alert, through the joint 
terrorism task force and through the U.S. Attorney's office, 
the state and local law enforcement, as well as, most often, 
the political hierarchy of the city or the town or the 
community where we have this information. We believe that those 
individuals who are responsible for the safety, the first 
responders, should have access to that information. And then we 
coordinate afterwards in trying to run the threat down and 
determine whether indeed it is credible or not.
    The most important thing that comes out of this enhanced 
vigilance, as I briefly stated before, is the alertness of the 
citizenry. We have on a number of occasions been alerted to 
things that are out of the ordinary that indeed, we come to 
find, gave us some insight and gave us a lead to persons who 
were associated with terrorist groups and enabled us to take 
some action against them. And consequently, through this 
process of both raising the alerts but also in discussing what 
should be done through our various joint terrorism task forces, 
we have, I believe--and I believe intelligence would support 
this--deterred terrorists from attacks because of the enhanced 
vigilance.
    Senator Mikulski. Mr. Mueller, I think I'm going to follow 
up on this in the closed session, and questions that I have for 
the CIA and the other agencies I'll save for the closed 
session.
    Chairman Roberts. Senator, we will have a second round. And 
the distinguished Senator's time has expired. Senator Lott.
    Senator Lott. Thank you, Mr. Chairman, and thank you, 
gentlemen, for the work you do in your respective positions, 
and for what you're doing to protect our country.
    You know, in Congress we have turf conflicts and 
disagreements between committees, the House and Senate, 
individual Senators and Congressmen. Human nature is not always 
to share or cooperate. I think I'm encouraged by what I hear 
you're saying, and you know, you are trying to change this 
culture; several others have referred to that. But I think to 
the average American, when they were told, in effect, that you 
know, that sometimes the FBI and the CIA, and maybe DIA, all of 
you weren't exchanging, and coordinating, and cooperating in 
handling of information, the average person couldn't understand 
that. So I want to emphasize again the importance of your 
continuing to work to get that accomplished.
    Because of our limited time, let me try to get to a couple 
of specific questions. One of the areas I've been concerned 
about is security of seaports and the capabilities of the Coast 
Guard and the threat of how some weapon of mass destruction 
could be brought into ports, big or small, whether it's 
Gulfport, Mississippi or Baltimore.
    So elaborate on how you're going to deal with that threat, 
if you can, as much as you can in open session. And how is the 
relationship with Coast Guard? And you might just tie into 
that, there was a lot of discussion when we were passing the 
homeland security legislation about the categories that would 
go into homeland security. And what kind of progress are you 
making in terms of cooperation with this new Department?
    Director Mueller. Let me just start, if I could, Senator, 
with the ports. Each of the major ports, at least almost every 
one of the ones I know about, has, as an adjunct to a joint 
terrorism task force in Norfolk or Charleston or elsewhere, a 
group that looks at port security. In that group is the FBI. In 
that group is the Coast Guard and the local police chiefs. If 
it's a federal facility, members from the federal facilities 
come together as a task force to address the security of ports.
    Since September 11, we have had certainly in excess of 10, 
probably more than 20, and perhaps more than that, threats of 
ships coming into various ports with anything from nuclear 
weapons to bombs. And on each of those occasions where we have 
received such a threat we have worked closely together with the 
Coast Guard to identify the vessel or vessels, to search the 
vessel or vessels, and to assure that the threat was not 
credible.
    We are working exceptionally well with the Coast Guard, 
have been since September 11, and I expect that that will 
continue as the Coast Guard transfers to the Department of 
Homeland Security. We certainly have seen no diminution in 
efforts to coordinate and cooperate whenever we get a threat 
against a port.
    Senator Lott. Director Tenet, maybe Admiral Jacoby, there's 
been discussion about this in the past, and I presume there's 
an ongoing aggressive effort--and I'm not sure exactly who's in 
charge of it--to try to keep up with and track fissionable 
material that could be used, obviously, in nuclear weapons. 
What can you say publicly about how aggressively we're pursuing 
that dangerous material?
    Admiral Jacoby. Senator Lott, actually, it's very much 
combined, Defense and CIA effort in that regard. And I think it 
would be better to follow up with some detail in the closed 
session. But it also joins up with your last question about 
seaports.
    Obviously the concern is the movement of such materials. 
And there's a real good-news story in here. The Navy, through 
the Office of Naval Intelligence, has the intel community's 
responsibility for Merchant Marine and tracking of materials 
that are in those ships. That is a coordinated, consolidated, 
integrated effort with the Coast Guard. And there's some 
linkages in here that are really good-news stories in terms of 
information-sharing.
    Senator Lott. I've been surprised at some of the technology 
I've found that we have. I'll ask more questions about that 
this afternoon.
    One final question, because I'm afraid that my time is 
going to be gone. You know, Members of Congress are supposed to 
get briefings, and we do on occasion. Some of them are 
classified and very sensitive. But I've found recently that I 
find out more about what's happening with the intelligence 
community in a book than I'd ever gotten in a briefing about 
what happened in Afghanistan, ``Bush at War.''
    Now I think there's a lot of material in that book that 
probably shouldn't have been there. Do we have some process of 
trying to control leaks like that or deal with information like 
that that is disclosed and it shouldn't be? I guess I'm looking 
at you, Mr. Tenet.
    Director Tenet. It's an interesting book, sir.
    Senator Lott. Interesting book. Yeah, very interesting 
information in there, too.
    Director Tenet. And I think that obviously any time 
operational detail and other issues are given away, it causes 
us concern. It's one of the issues we work at all the time. So 
it's a complicated and difficult problem to deal with.
    Senator Lott. Well, I think you need to have an ongoing 
effort to try to stop that kind of information from getting 
into that type of medium.
    Thank you, Mr. Chairman.
    Chairman Roberts. The time of the distinguished Senator has 
expired. If the Senator has any suggestions on how we could put 
that duct tape on the mouths of Congressmen and Senators, 
perhaps it wouldn't happen as often as it does.
    Senator Edwards.
    Senator Edwards. Thank you, Mr. Chairman.
    Director Tenet, I have seen reports that a new bin Ladin 
tape will be broadcast today. Can you tell us, first, whether 
that's true, and second, what you know about it?
    Director Tenet. I've heard that on the way in, sir. I don't 
know what the contents will be. We'll just have to wait and see 
what is on this tape.
    Senator Edwards. You've not seen the tape yourself?
    Director Tenet. No, sir, I have not.
    Senator Edwards. Nor have you received any reports about 
what's contained on the tape?
    Director Tenet. I had some reports last night, sir, about 
the possibility that this would exist. But in preparing for 
today, I honestly have not spent any time looking at it. So 
we'll see whether it runs and what it sounds like.
    Senator Edwards. Director Mueller, you and I have discussed 
the subject of the FBI's reform efforts and a fundamental 
disagreement that you and I have about this. Over 17 months, we 
have learned and the American people have learned about case 
after case where the FBI missed clues or failed to connect 
dots, ranging from the failure to follow up on the Phoenix memo 
to failing to get the Moussaoui computer to failing to track 
two of the hijackers who the FBI knew were in the United 
States.
    And during that 17 months since September 11, the FBI 
obviously has had a chance to reform itself. As we've 
discussed, I don't believe the FBI has met that challenge. I 
think there are two fundamental reasons for that. One is, I 
think there's bureaucratic resistance within the FBI. The FBI 
is by nature a bureaucracy. There are people within the FBI who 
work to protect their own turf and they resist change, which is 
the nature of bureaucracy.
    And second, I think the Bureau is just the wrong agency to 
do intelligence work. I think there's a fundamental conflict 
between law enforcement and intelligence-gathering. And law 
enforcement is about building criminal cases and putting people 
in jail and indicting people.
    The FBI is clearly very good at law enforcement; there's no 
doubt about that. But law enforcement is not intelligence. 
Intelligence isn't about building a case; it's about gathering 
information and putting it together and seeing how it fits into 
a bigger picture.
    Now, as you know, I'm not the only one to reach this 
conclusion; there are many others. In fact, I believe all of 
the objective reviews have found that the FBI is not up to this 
task. Let me just quote some of them first.
    The Markle task force, which was October of 2002, said, 
``There is a resistance ingrained in the FBI ranks to sharing 
counterterrorism information. The FBI has not prioritized 
intelligence analysis in the areas of counterterrorism.''
    The Gilmore Commission, December of 2002: ``The Bureau's 
longstanding tradition and organizational culture persuade us 
that, even with the best of intentions, the FBI cannot soon be 
made over into an organization dedicated to detecting and 
preventing attacks rather than one dedicated to punishing 
them.''
    The Joint Congressional Inquiry; the report came out in 
December. ``The FBI has a history of repeated shortcomings 
within its current responsibility for domestic intelligence. 
The FBI should strengthen and improve its domestic capability 
as fully and expeditiously as possible by immediately 
instituting a variety of recommendations.''
    And finally the Brookings Institution, in January of this 
year, said, ``There are strong reasons to question whether the 
FBI is the right agency to conduct domestic intelligence 
collection and analysis.''
    My view, and I've expressed to you, is that the FBI's 
effort at reform is too little, too late. I also think, because 
of the nature of the FBI, that it will never be able to reform 
itself to do this job.
    The New York Times reported from the second-ranking 
official at the Bureau--this is in November, November 21--that 
he told field-office chiefs in a memorandum that he was--I'm 
quoting him--``amazed and astounded by the failure of some 
unidentified FBI field offices to commit essential resources 
and tools to the fight against terrorism.''
    I will introduce legislation this week--I'm going to give 
you an opportunity to respond. I will introduce legislation to 
take the domestic intelligence function out of the FBI and put 
it into a new agency. I think it'll improve our ability to 
fight terrorism. I also think it will improve, because of the 
structure that I'm proposing, our ability to protect freedoms 
and liberties here within our country.
    I do want to ask you about----
    Chairman Roberts. The Senator's time has expired.
    Senator Edwards. I think we should give him a chance to 
respond.
    Chairman Roberts. I think that's pretty obvious. Let me 
just say to the distinguished Senator, Senator Rockefeller and 
I have agreed that, prior to the budget hearings, the first 
hearing we will have will be on FBI reform so the Director can 
come before us and certainly tell his side of the story. And I 
will now recognize the Director to respond to the comments made 
by the Senator.
    Director Mueller. Senator, you have overlooked a great deal 
of the good work that the FBI has done in the last 17 months in 
connecting the dots. You also, I think, have overlooked the 
capability of the Bureau to collect facts through 
investigations, through interrogations, as it has done for 90 
years.
    The only other point I would make, Senator, is I've offered 
you an opportunity personally to come down to the Bureau and be 
briefed on the changes that we have made since September 11. 
You have declined----
    Senator Edwards. I'd be happy to do that.
    Director Mueller [continuing]. To come down. And I asked 
you in particular, before you introduced the legislation, that 
you come down and see the changes we have made to augment the 
intelligence-gathering capability of the Bureau, both the 
gathering as well as the analytical capability of the Bureau. 
So I ask you to do that before you submit that legislation.
    Thank you, sir.
    Senator Edwards. May I just respond briefly to the 
Director? I will be happy to do that. I would like to see what 
changes you've made. But I think there is a fundamental issue 
here, which I, again, will be happy to talk with you about.
    Director Mueller. If I can make one more point, you have 
quoted pieces from a number of reports. I also know that you 
have received letters from state and local law enforcement who 
do not share your view that the Bureau cannot undertake this, 
and, to the contrary, believe that the Bureau ought to 
undertake this responsibility because so much of it relies on 
the integration of the federal government with state and local 
law enforcement.
    Senator Edwards. Thank you, Mr. Chairman.
    Chairman Roberts. If we can adhere to the five-minute rule 
in the future, it would be appreciated. The Senator from 
Oregon.
    Senator Wyden. Thank you, Mr. Chairman.
    Director Tenet, if no military action is taken against 
Saddam Hussein this winter and spring and U.N. inspectors 
continue their work in Iraq through the summer, I would like to 
know if you believe Hussein will be a greater threat to our 
country and our allies in the fall.
    The question is relevant to me, because obviously we're 
going to keep the U.N. inspectors there, canvassing the 
country. And we're concerned about his military and weapons of 
mass destruction capability. And I'm wondering if you think, 
given that, if no action is taken this winter and this spring, 
whether Hussein will be a greater threat to our nation in the 
fall.
    Director Tenet. Senator, if the inspections regime 
continues on its current course, with the non-cooperation and 
non-compliance of the Iraqis, essentially their continued 
effort to deceive and make it possible for these inspectors to 
work--and there's not much of a record to indicate that that's 
going to change--that's something you have to factor into your 
calculations.
    The one thing you have to remember is Saddam Hussein built 
the WMD program with inspectors living in his country for 
years. He understood how to acquire chemical and biological 
capabilities. He understood how to establish a clandestine 
procurement network. He understands how to cross borders.
    Now the policy decision you make or others make is not my 
purview. He will continue to strengthen himself over time, and 
the greatest concern is how fast he gets to a nuclear 
capability, which then magnifies the impact of his already 
large chemical and biological program. So, from a professional 
perspective, it never gets any better with this fellow, and 
he's never been a status quo guy.
    Senator Wyden. We'll get into it some more in the closed 
session, I appreciate, just because time is short.
    Gentlemen, let me ask you about the Total Information 
Awareness program. This, of course, is a Defense Department 
program. I'm sponsor of an amendment now on the omnibus bill to 
put some restrictions there so we can have some safeguards for 
the civil liberties of the American people. And of course, the 
technology from the Total Information Awareness program as 
envisaged would be given to various agencies so they could 
track various databases. I'd like to know from you all what 
your view is of the Total Information Awareness program's 
planned capabilities, and whether you have any concerns about 
privacy and, if so, what safeguards you think are necessary?
    Perhaps, Mr. Mueller, it would be better to start with you 
on this.
    Director Mueller. I am not totally familiar with all 
aspects of what has been called the Total Awareness--I guess, 
Total Awareness Program?
    Senator Wyden. Total Information Awareness.
    Director Mueller. Total Information Awareness program. We 
have had discussions with DARPA with regard to utilizing 
certain of their tools with our information but have not 
discussed participating in what is called the Total Information 
Awareness program. I don't know enough about it to really 
comment about the impact on privacy. I would say that whenever 
we have databases that are interrelated, the impact on privacy 
should be considered as we move forward. And to the extent that 
we institute new databases within the Bureau, we look at the 
privacy aspects of those databases.
    Senator Wyden. Well, I certainly hope so, because this is a 
program that involves the question of snooping into law-abiding 
Americans on American soil. It's something I feel strongly 
about. And we're talking about the most expansive surveillance 
program in American history, and this is something we've got to 
nail down the safeguards before we go forward, and suffice it 
to say there is substantial bipartisan concern up here on this.
    One last question, if I might, for you, Director Tenet. The 
terrorist tracking system, the TIC system, the Terrorist 
Identification Classification System, was something I wrote in 
the intelligence authorization bill, so we could store and 
retrieve the critical information on known or suspected 
terrorists and essentially track them on an ongoing basis. I'd 
like to know what the status of this is and particularly what's 
been done to improve the sharing of information regarding these 
known and suspected terrorists, and whether it's now getting to 
the state and local level, because, again, I'm hearing at home 
concerns on this point.
    Director Tenet. Sir, I know that we're hard at work in 
building this database. One of the things that is involved in 
this Threat Integration Center that we're trying to establish 
and we hope to establish soon is that this will be the 
repository to make sure that these databases are kept and 
updated here. We are building. We're making progress. I'd ask 
Director Mueller to comment about the transferral of the data.
    Senator Wyden. That would be good. And particularly, 
Director Mueller, tell us how the TIC system--and I'll finish 
right up, Mr. Chairman--is going to be integrated with the 
terrorist threat center that the President is talking about.
    Director Mueller. Excuse me. Just one second.
    [Pause.]
    Chairman Roberts. It's called TTIC.
    Director Tenet. We know that. We know that.
    Director Mueller. The question, again, was, Senator--I 
apologize----
    Senator Wyden. The question was, where are we withrespect 
to the Terrorist Identification Classification System, and how is going 
to be fit into the center that the President envisages?
    Director Mueller. I would have to get back to you on that. 
I'm not, off the top of my head, familiar with where we are in 
the TIC and how it will relate to the TTIC.
    Director Tenet. Sir, if I can just fill in for a moment, 
one of the organizing principles here will be to have this 
database developed and maintained in this center, and this will 
be something that we provide accessibility to, to federal, 
state and local levels. And we'll put it in the center.
    Senator Wyden. We'll do more in closed session.
    Thank you, Mr. Chairman.
    Chairman Roberts. I thank the Senator.
    We are ready for the second round. There will be the 
Chair--we will strictly adhere to the five-minute rule. 
Senators who go over five minutes will be taken to Dodge City, 
put in the local jail and, after five days, hung by the neck 
until they are dead. [Laughter.]
    That may be a bit harsh. We'll consider amnesty.
    I have some observations. I know that the Senator from 
North Carolina made mention of several commissions. There's the 
Bremer Commission, the Gilmore Commission, the Aspin-Brown 
Commission, the Hart-Rudman Commission, the CSIS study--all 
made possible by Senator Warner when he set up the Emerging 
Threats Subcommittee in the Armed Services Committee and I was 
the chairman. It was like a fire hose in your face. This is 
before 9/11.
    Most of what has been said about connecting the dots, and 
the oceans no longer protect us, et cetera, et cetera, not a 
matter of if but when, access denial, asymmetrical warfare--all 
the buzz words that we hear were said back then in 1999. I even 
said some; I was even prescient. Somebody said I was even 
intelligent.
    And the thing that I would say is that after all of that 
and all of this discussion, still we have the question, does 
the situation in Iraq merit the United States going to war? And 
the observation that I would like to make, that in the last 
decade 6,000 Americans have lost their lives either overseas or 
in this country, and have been killed by terrorist cells, 
either state-sponsored or non-state-sponsored, we are at war. 
That's the key. Now, what we do as a result of that, what would 
be the best way to win this war over the long term, it seems to 
me that is the question. And I don't question any Senator's 
intent, but I think we ought to make that very clear.
    And it seems to me that all this is related. We have a 
tendency to say, you know, Admiral, you're right, you rated 
North Korea as the number one issue. And then Director Tenet 
says it's al-Qa'ida that's the number one issue. And then the 
President says it's Iraq that's the number one issue. They're 
all interrelated. And if we start drawing a line in the sand 
and then drawing a new line in the sand and a new line in the 
sand, as we saw in the Balkans with Slobodan Milosevic, we end 
up in the sandbox. I don't think we can afford to draw about 
six or seven lines in the sand because of the message that that 
sends to somebody like Kim Jong-Il, who is a ruthless 
theological dictator--very bizarre man, very surreal man, very 
surreal country.
    So I think it's all interrelated. And I think we make a 
dangerous assumption by trying to rate one over the other. They 
are all equally extremely important in regards to our vital 
national security.
    George, if the U.S. takes military action against Iraq, 
what is the likelihood that Saddam will use weapons of mass 
destruction against the U.S.? But if the U.S. does not take 
military action against Iraq, what is the likelihood that 
Saddam will use weapons of mass destruction against the U.S., 
especially with consideration to that poison center in 
northeast Iraq that the Secretary of State so detailed in his 
testimony before the Security Council?
    Director Tenet. Sir, you asked a couple of questions. I 
think you need to go back to the Secretary's statement and look 
at how carefully crafted that language was in terms of the 
linkages that are made.
    I ask everybody to do that. This is a story we're 
developing very carefully. So before you lead to operational 
direction and control, the safe haven and harboring piece, it 
is very sound and established. And how much they know and what 
they know is something you're still developing, although we're 
certainly aware that the Iraqi Intelligence Service is 
knowledgeable about the existence of this capability. So people 
have to be very careful about how we used our language and how 
far we take the case.
    Now, you know that when we wrote our national intelligence 
estimate, I guess in October, we talked about the fact that if 
he believed at the time that--well, I'll paraphrase here--that 
hostilities were imminent or his regime was going down, we had 
a great concern that he would use weapons of mass destruction. 
The truth is, we don't know what he's going to do. And now 
we're at a different point in time. And this is some things we 
need to talk in classified session.
    Chairman Roberts. I'll be happy to do that. I've just got a 
couple more questions.
    Director Tenet. Yes, sir.
    Chairman Roberts. I've got 46 seconds, and I may be taken 
to Dodge City if I'm not careful.
    Director Tenet. Sorry, sir.
    Chairman Roberts. All right.
    Admiral, what do we have new on Scott Speicher, the man 
that we left behind?
    Admiral Jacoby. Sir, we have a number of leads and we've 
done notification on those. And so we're continuing to pursue 
very aggressively. Right now we have no conclusive information, 
and so our assessment is we are pursuing it as if Captain Scott 
Speicher is alive and being held by the Iraqis. We continue 
with our assessment that the Iraqis know of his fate and that 
they are not forthcoming with the information that they have 
available.
    Chairman Roberts. I thank you for your efforts, and please 
relay my heartfelt thanks to your team, the Speicher team, to 
determine that's the case. I am out of time. And don't bring 
the sheriff yet.
    I'd like to ask of you just one real quick question. We've 
heard a lot about--and I'm going to submit for the record to 
you, George, and to you, Bob, more especially--whether we need 
a director of national intelligence, whether the FBI should be 
involved in counter terrorism, and a series of things that came 
from the joint investigative staff investigation on 9/11. And 
you can respond, and you don't have to do it next week. Or we 
can talk about it in the classified session.
    Senator Lott, who is not with us here today, pointed out--
or, actually, it was Senator Warner that actually pointed it 
out--in July prior to 9/11 that we had 14 committees in the 
Senate alone--14 committees; Lord knows how many 
subcommittees--that had jurisdiction over homeland security and 
national security. Senator Lott informed me after 9/11, about 
several months ago, there are now 80, if you combine the House 
and the Senate. I don't know which door you knock on. You're 
going to have to give this same presentation to Armed Services, 
and you should, because of the different tenor of that.
    Would you all think that it might be a good idea for the 
House and Senate to reform itself so that you would know which 
door to knock on and you could give a cogent answer and there 
would be a one-stop shopping center, or at least a belly 
button-kind of committee that at least would, you know, be able 
to do the job rather than trying to report to 80 different 
committees and listen to 80 different speeches, times about 10 
members of each committee? I think the answer is yes. Is that 
correct?
    Director Tenet. Sir, I don't think any of us would tell you 
how to reform the Congress. [Laughter.]
    We'll work on reforming ourselves.
    Chairman Roberts. Well, whisper in my ear. You could sort 
of nod your head or raise your eyebrow or something like that.
    Director Tenet. Maintaining very good discipline, I'm being 
disciplined at this moment, sir.
    Chairman Roberts. I got it, George, I got it. [Laughter.]
    All right. Senator Rockefeller.
    Vice Chairman Rockefeller. Thank you, Mr. Chairman.
    Admiral, on your excellent preparation, testimony, you 
talked about North Korea being fundamentally destabilizing 
potentially and probably. And you talked about its missile 
system, Taepo-Dong II. If it's a two-stage thing, it reaches 
parts of America; if it goes to three-stage, it can reach all 
of America; that is, plutonium, a nuclear bomb. All the others 
at the panel table have mentioned all of the other kinds of 
threats around. North Korea I have in my own mind.
    Is South Korea going to seek a different kind of 
relationship? It would be my judgment that it would over the 
next 10 to 20 years. That either can be, you know, handled by 
redeployment of forces, or there is something going on in South 
Korea which is more than just young people going to coffee 
shops and saying un-nice things about America, but a 
fundamental desire of that country to establish itself on its 
own, to beseen as less than, you know, a part of our protection 
posture in Asia, in South Asia.
    You have, in addition to that, the problem that you spoke 
of, Admiral, of poverty worldwide, of 95 percent, I think you 
said, of all the people who are in poverty will be in 
undeveloped nations in the population growth that occurs. So 
you have this enormous array, and each of you have ticked off 
all the countries that you worry about.
    My question is to this point. And it's not a softball 
question or a set-up question, but it's one that needs to be 
asked. You can combine, coordinate, we can have a DNI or not 
have a DNI; at some point you have to have the resources and 
the people to be able to do all of this. Now, we're focused on 
Iraq, but we have to be--I mean, we haven't even talked about 
South America.
    Various ones of you in the past have talked to me about 
fatigue, the fatigue factor, that people just have--they're 
overworked, they're overloaded, they have so much that they 
simply make mistakes, like we do, because they're tired and 
there aren't any replacements, or they're 24/7, all the time.
    And I'm interested in, one, the answer to the first.
    And secondly, what are we in danger of not being able to 
cover? Your responsibility is everything. You cannot perform on 
everything. That becomes a serious national security question. 
Director?
    Director Tenet. Well, Senator, I think it is a very 
important question. Where we are today is, in building our 
budgets and thinking through the future we basically have been 
made whole in terms of problems we were fixing and worries that 
we had, and there's an enormous infusion of dollars that have 
come to the community over the last two years with the 
President and the Secretary of Defense's support, so we're 
beefing up capabilities. People are an issue; we can't bring 
them on fast enough. And we're doing everything we can to bring 
them on.
    The key question that we're now thoughtfully talking about 
with the Secretary of Defense and others is, in the world that 
you're headed to where information is going to have absolute 
primacy, do we really have the global coverage that we need? Do 
you really have the redundancy that you need? Is the 
architecture that we designed for collection in the early '90s 
sufficient? I think we all believe that there are dramatic 
improvements that have to be made. We're thinking about that 
very, very hard and what the resource implications are.
    But it's very clear that the kind of global coverage, the 
connectivity--just the one issue that I talked about in my 
testimony, this issue of safe havens that are derived in states 
that basically can't deliver goods and services to their 
people, thereby creating new safe havens for terrorist 
organizations; coverage of these places is a nontrivial event. 
We can't tell you that we cover it with any speed or grace 
today. We make every effort we can. You put your finger on 
something that's very important and we're thinking about it 
right now as we make ourselves whole from lots of shortfalls in 
the '90s, and we're now asking the same question you're asking.
    Vice Chairman Rockefeller. I'll stop there. I'll just say 
that the world of intelligence is incredibly important and, 
therefore, it has to be done properly and thoroughly. That's 
your responsibility, that's also our responsibility to make 
sure it can happen.
    Chairman Roberts. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Senator Rockefeller raised the important question about 
North Korea. And I want to make this point. This President is 
working as hard as any President could to get to a diplomatic 
solution in both areas. And people say, well, there's no 
difference between the threats of North Korea or they're 
equally as--some say North Korea's more of a threat. But I 
think we should point out that the issue with North Korea 
basically--under this presidency, has just begun, and he's 
dealing with it diplomatically, as he should.
    In the case of Iraq, we've been at it with the world for 12 
years and 17 resolutions, and we're now at the point where 
other nations are thinking of prolonged inspections, doubling 
or tripling the size of the inspectors for an indefinite period 
of time--and I'll return to that.
    But also, the Chairman brought up this question of weapons 
of mass destruction. And I think the importance of these 
hearings in the open is that the public can look each of you in 
the eye through the cameras and hear your response.
    In response to the Chairman, Mr. Tenet, you say, frankly, 
you don't know whether Saddam Hussein would or would not employ 
weapons of mass destruction. But the troops deploying from my 
state by the tens of thousands, their families, I think we have 
to go a step further and point out there is a risk because he 
has a known record of having used them, and it is not simply 
that we don't know that.
    Director Tenet. Sir, if I may----
    Senator Warner. Let me just finish. And then, Admiral, the 
same question.
    Now, you made no reference, Director Tenet, to the weapons 
in your opening statement, that is, the prepared statement. But 
the Defense Intelligence Agency did, and I read it: ``Saddam's 
conventional military options and capabilities are limited, and 
we know that. They're significantly degraded since 1991. But I 
expect him''--this is I, you--``to preemptively attack the 
Kurds in the north, conduct missile and terrorist attacks 
against Israel and U.S. regional and worldwide interests, 
perhaps using WMD and the regime's link with al-Qa'ida.''
    So you seem to go a step further. Is there unity of 
thinking between DIA and CIA on this issue? Or, frankly, do you 
have a difference of view? Because I think in fairness, here in 
open we should tell the men and women of the armed forces, 
indeed, the civilians employed, and the families, exactly what 
your professional opinions are.
    Director Tenet. Sir, I think you have to plan on the fact 
that he would use these weapons.
    Now, I was remarking--do I know what's in his head? I don't 
know. Do I know whether his subordinates will take the orders? 
I don't know. There are some unknowables, but you must plan as 
if he will use these weapons.
    Senator Warner. Clear.
    Admiral Jacoby. And, Senator, my comments are that in a 
period of time when he believes that the regime is going down, 
he will take every effort to divert attention, whether it's an 
attack on the north, an attack in Israel, or use the 
capabilities that are available to him in his own arsenal. And 
that's the projection they're based on, that situation.
    Senator Warner. So there are parallel views of the two 
principal agencies, correct?
    Admiral Jacoby. I believe so.
    Senator Warner. The second question, Mr. Tenet, and to the 
Director of the Bureau, my constituents say: Well, let's look 
at this proposal maybe of extended time and enlarging the 
regime because Saddam Hussein is 6,000 miles away; he's no risk 
to us.
    But I reply to them that these weapons of mass destruction 
in his possession can be disseminated through the worldwide 
terrorist groups and brought to the shores of the United 
States, in perhaps small quantities. One envelope, which was 
never opened, resulted in the deaths attributed to anthrax 
here, of courageous postal workers, and in some ways 
debilitated the Congress to operate for a significant period of 
time.
    Now, what evidence can you share publicly that Iraq is 
disseminating through worldwide terrorist organizations or in 
other ways any of their alleged cache of literally tons of 
these chemicals and biological agents which can bring about 
mass destruction of our people?
    Director Tenet. Sir, we have provided the Committeewith a 
number of classified papers that are well written and well done. And I 
think it documents the extent of what we have learned today. Obviously 
we have some concerns about the safe haven that's been created, and I 
did not suggest operational direction and control. But over time you 
learn more things.
    How that plays out and whether, you know, these things get 
to second- or third-hand players is something that you're 
always worried about. So I think we've taken these cases as far 
as we can and given all these papers to you. And I'd like to 
let it rest with that. As we develop more data on this, I think 
what----
    Senator Warner. But that is a threat to the security here 
at home. Am I correct?
    Director Tenet. Sir, you have to worry about how those 
things can ultimately be transported in the hands of multiple 
groups to affect the security of the American people.
    Senator Warner. The views of the Bureau?
    Director Mueller. I fully support that. I am concerned 
always about the threat of WMD in an attack on the United 
States. You look at what would have happened if we had not gone 
into Afghanistan when we did to go after al-Qa'ida. Once we go 
into Afghanistan, we do find that they have research into 
developing WMD capabilities. And had we not gone in then, those 
capabilities could have matured to the point now where we would 
be in desperate, desperate shape.
    Senator Warner. Lastly, Mr. Ford, do----
    Chairman Roberts. The Senator's time has expired, if I 
could----
    Senator Warner. Could I just ask him if the Department of 
State--he's been very silent here--give him a chance to 
participate--on this alleged resolution coming up through 
France and others, that triple, quadruple inspectors, leaving 
them for an indefinite time, does that merit consideration by 
the U.S., or are we prepared to try and go into that Security 
Council and knock that down?
    Mr. Ford. Senator Warner, the question and response of 
Director Tenet earlier about whether or not the inspectors or 
inspection process is effective I think is relevant in 
answering your question.
    Senator Warner. Yes.
    Mr. Ford. At least from an intelligence officer's 
perspective, you can keep those inspectors in there forever. 
You can triple or quadruple them. You can give them all kind of 
new rules, and you can't guarantee me that you can deal with 
the question of chemical, biological and nuclear programs of 
Saddam Hussein.
    It's a case where the inspections have allowed these 
weapons of mass destruction to exist, and anyone who doesn't 
believe there's not enough evidence about these weapons of mass 
destruction hasn't looked or doesn't want to see; it's there.
    And sure, if there's a diplomatic way to solve this 
problem, I, for one, would like to take it. The problem is is 
that we've had 12 years and all kinds of suggestions from 
friends and allies. Well, give him another day; give him 
another week. What I see as an intelligence officer, he's taken 
full advantage of that week, that day, that month, that year, 
those 12 years. So, when you come to me and say inspections; 
sure. It's a great idea; it's good; they have a hard job. But 
I'm not--as far as I'm concerned, it doesn't solve the problem 
of weapons of mass destruction in Iraq.
    Senator Warner. I thank the Chair.
    Chairman Roberts. Senator Levin.
    Senator Levin. Mr. Tenet, until your statement this morning 
that all valuable intelligence information in our possession 
has now been shared with U.N. inspectors, two public statements 
of the administration have been the following.
    One, Secretary Powell on January 9, saying that we began 
sharing information, significant intelligence information, on 
Iraqi weapons programs a few days before--that's early January. 
He also said that we were withholding some of the sensitive 
information, waiting to see if inspectors are able to handle it 
and exploit it.
    And then later in the month, at the end of the month, 
Secretary Rumsfeld and others said the following. That 
inspectors have been given as much information as they can 
digest.
    Very different from what you are now saying, which is that 
as of today, all relevant information has now been provided to 
the U.N. that has intelligence value. My question to you is, 
have the U.N. inspectors been notified that they have been 
given all that they're going to get from us?
    Director Tenet. Sir, all that they're going to get is as we 
may----
    Senator Levin. All that we believe is of significant 
intelligence value. Have they been notified----
    Director Tenet. I believe they have in our daily 
conversations. In fact, sir, we've given them a large packet of 
sites and then we have conversations with them every day.
    Senator Levin. My question is have they been notified that 
we have no more packets of information that we plan on giving 
them----
    Director Tenet. Sir, we may develop more packets over time.
    Senator Levin. As of what we have, have we notified----
    Director Tenet. I believe so, sir. I'd have to check. I 
haven't been the person in direct dialogue with them.
    Senator Levin. Secondly, do you support U.N. inspectors 
using U-2 surveillance planes over Iraq?
    Director Tenet. Yes, sir.
    Senator Levin. Pardon?
    Director Tenet. Yes, sir.
    Senator Levin. Why?
    Director Tenet. Because in the absence of surveillance 
before, during and after an inspection--and I want to be 
careful about what I say here--you really have little ability 
to understand what they've done.
    SEnator Levin. So the U-2s would help the inspectors?
    Director Tenet. I believe so, sir, yes.
    Senator Levin. So you support giving the inspectors those 
U-2s.
    Director Tenet. Yes, I do.
    Senator Levin. Now, relative to the relationship--by the 
way, I'm glad to hear that. That's sort of positive towards the 
possibility of inspections that we hear from the State 
Department representative that they can't guarantee anything, 
which is obvious. The question is whether they have a use or 
might actually provide some information that is available. I'm 
glad you acknowledge that providing them with the U-2s does, in 
fact, make sense. That's the first hint of support we've heard 
this morning for the inspection process, but it's welcome.
    Would you say, Mr. Tenet, that the Zarqawi terrorist 
network is under the control or sponsorship of the Iraqi 
government?
    Director Tenet. I don't know that, sir, but I know that 
there's a safe haven that's been provided to this network in 
Baghdad.
    Senator Levin. So you're not--well, you're saying that you 
don't know if they're under the support, that they are under 
the control or direction?
    Director Tenet. Yes, sir. We have said--what we've said is 
Zarqawi and this large number of operatives are in Baghdad. 
They say the environment is good. And it is inconceivable to us 
that the Iraqi intelligence service doesn't know that they live 
there or what they're doing.
    Senator Levin. In the February 7 Washington Post, senior 
U.S. officials contacted by telephone by the reporter said that 
although the Iraqi government is aware of the group's activity, 
it does not operate, control, or sponsor. Do you disagree with 
that?
    Director Tenet. I'm sorry, sir; it's--on the basis of what 
I know today, I can't say ``control'' in any way, shape or 
form, but I will tell you, there's more data coming in here. So 
what you just read, I will stand by today, maybe not tomorrow, 
but we'll see where the data takes us.
    Senator Levin. All right.
    Next. Is Zarqawi himself a senior al-Qa'ida terrorist 
planner? -
    Director Tenet. He's a senior al-Qa'ida terrorist 
associate, yes, sir.
    Senator Levin. No, is he a planner?
    Director Tenet. Yes, sir. He's met with bin Ladin.
    Senator Levin. So he works for al-Qa'ida?
    Director Tenet. He's been provided money by them. He 
conceives of himself as being quite independent, but he's 
someone who's well known to them, has been used by them, has 
been contracted by them.
    Senator Levin. Is he under their control or direction?
    Director Tenet. He thinks of himself as independent, sir, 
but he draws sustenance from them.
    Senator Levin. All right. Do you disagree, then, with the 
senior administration officials in The Washington Post quoted 
on February 7 who say that although Zarqawi has ties to bin 
Ladin, he is not under al-Qa'ida's control or direction?
    Director Tenet. Sir, I don't agree with that statement. I 
believe they're witting about what he's doing. I believe they 
provide him sustenance, and I believe they use him effectively 
for their purposes and they know precisely what he's up to.
    Senator Levin. And therefore you do not agree with the 
senior officials who said this?
    Director Tenet. No, sir. I think the relationship with him 
is more intimate than that.
    Senator Levin. Unnamed. These are unnamed officials, of 
course. But even when they come from the CIA, they're unnamed.
    Director Tenet. Yes, sir.
    Senator Levin. The reason I asked you about the statement 
whether or not they have bases--al-Qa'ida has bases in Iraq--is 
because of the statement this morning of Mr. Ford. He said you 
couldn't say that they have bases one way or the other. But I 
just want to let you know, on page 3 of Mr. Ford's testimony, 
he says that Saddam has allowed al-Qa'ida increasingly to 
secure bases from which to plan terrorist attacks.
    Director Tenet. Well, sir, you said to me--well, of course, 
in regard to this Kurdish--these----
    Senator Levin. No, no. He's allowed. Saddam has allowed. 
That's not the Kurdish area.
    Director Tenet. Yeah. Well, he's allowing them to operate 
in Baghdad. Whether it's a base or not, I----
    Senator Levin. But tell Mr. Ford you don't know whether 
they're a base so his next testimony will reflect some 
consistency with the CIA.
    Director Tenet. It would be a base of operation, sir, is 
the way I'd characterize it.
    Mr. Ford. We've never had an agreement that we had to be 
consistent with the CIA. We give our own view.
    Senator Levin. That sounds good. There's not unanimity 
about these issues in the intelligence community. That's a 
useful bit of information.
    Thank you, Mr. Chairman.
    Chairman Roberts. Well, let the record show that each 
Senator on the committee has a different view about what is 
going on.
    Senator DeWine.
    Senator DeWine. Director Tenet, in regard to Afghanistan, 
talk to me a little bit about al-Qa'ida and other terrorist 
groups. What impact are they having there now?
    Director Tenet. I think, sir, that the area of our greatest 
worry, as you know, are the eastern provinces that abut the 
northwest frontier with Pakistan. And that's where we think 
that they continue to try and either Taliban remnants or al-
Qa'ida remnants continue to operate.
    I think we'd paint a picture of a country that, in relative 
terms, is pretty secure in the rest of the country. That 
doesn't obviate warlordism, factionalism that's occurring, but 
this is the part that of the world that creates--these eastern 
provinces and the northwest Pakistani frontier are the area 
where we have our greatest worry, greatest insecurity, greatest 
number of attacks on our forces and our people on the ground. 
So it's something that we have to work on pretty hard.
    Senator DeWine. Has that changed? I mean, what's the 
progress there?
    Director Tenet. Sir, I think the progress is----
    Senator DeWine. Is it worse than 60 days ago or----
    Director Tenet. I wouldn't say--no, I don't say it's worse. 
I will say it's something that is a steady state of worry for 
all of us.
    Senator DeWine. Admiral, do your analysts have, do you feel 
now, today, after the changes that we have seen made, do you 
feel your analysts have access across the community to the 
information that they need?
    Admiral Jacoby. Sir, we've made steady progress. I'm not in 
a position to know sort of what I don't know at this point, 
but----
    Senator DeWine. It's a problem, isn't it?
    Admiral Jacoby. It is, sir. And it's a point of ongoing 
discussion and work.
    Senator DeWine. Where are we with the FISA information?
    Director Mueller. The FISA information is disseminated to 
the community in real time now in ways it had not been before 
September 11. And I would let Mr. Tenet speak to that.
    Senator DeWine. I asked about dissemination about FISA.
    Director Tenet. Yeah, we get this material real time now as 
a result of the PATRIOT Act. So it's been quite beneficial to 
both of us.So there's a real-time access so that we can mine it 
for operational data, and Bob uses it for other purposes, for 
operational data as well. But it's moving very quickly.
    Senator DeWine. What about you, Admiral?
    Admiral Jacoby.  Sir, we see it as part of product, very 
carefully and clearly identified with the appropriate handling 
requirements attached to it.
    Senator DeWine. Director Mueller, your written testimony 
mentioned the FBI's efforts to work with suppliers and 
manufacturers of WMD materials to coordinate their voluntary 
reporting of any suspicious purchases or inquiries. How broadly 
is this effort being conducted, and have the suppliers and 
manufacturers actually been cooperative?
    Director Mueller.  It's an effort throughout all of our 
field offices, and indeed they have been cooperative. We've had 
a number of investigations initiated because a manufacturer 
will come to us, having received an order from, say, two or 
three separate countries, and the order for this particular 
product will be a product that can be used to develop some form 
of WMD product, and they'll see that the order is all the same. 
And it may come from countries in the Middle East or the Far 
East. It will raise some suspicion, and we've had a number of 
investigations that have been triggered by just such 
information coming from manufacturers in the United States.
    Senator DeWine. So this is working?
    Director Mueller.  It is working.
    Senator DeWine. Progress?
    Director Mueller.  Yes.
    Senator DeWine. Admiral, your written testimony also 
describes the long-term trends with respect to weapons of mass 
destruction and missile proliferation. You describe this as 
``bleak''--this is your words. You note that 25 countries 
either possess now or are actively pursuing WMD or missile 
programs.
    At this point we're focusing, of course, on preventing 
further proliferation and limiting the ability of rogue nations 
and unstable regimes from obtaining these weapons. But it's 
only a matter of time before these technologies are widely 
spread around the globe.
    Let me just ask any members of the panel, how are we 
planning for that future time, when we get up to that number? 
Twenty-five countries would certainly change the dynamics of 
that. And I wonder if anyone wants to comment on that.
    Director, you're nodding. Anybody that nods gets to go 
first.
    Director Tenet.  Okay. Sir, I think, as I talked about in 
my statement, one of the things that worries me the most is the 
nuclear piece of this. I talked about the domino theory may be 
the nuclear piece. And you've got networks based on a country's 
indigenous capability, individual purveyors, and I think that 
we need to think--and this is a very important policy question, 
not my question--we need to think about whether the regimes we 
have in place actually protect the world any more.
    In time periods where you could contain this problem to 
states with regimes, that's one thing. Today I'm afraid the 
technology and the material and the expertise is migrating in 
manners in a networked fashion that belies a theory that's 
based on borders and states. And I think this is a problem 
because it will play right into ballistic missile 
proliferation, the mating of nuclear weapons to missiles, and 
the proliferation piece, when mated to issues like terrorism, I 
think is the most difficult and most serious threat the 
country's going to face over the next 20 or 30 years.
    Senator DeWine. Thank you.
    Chairman Roberts. The Director must leave very quickly to 
go to attend services for a fellow colleague, an intelligence 
officer. And at this juncture, on behalf of the entire 
Committee I would like to express our condolences. And if you 
would pass that to the family, and our prayers, and our 
heartfelt thanks.
    Director Tenet.  Thank you, sir.
    Chairman Roberts. Senator Snowe is next. If you feel--
Senator Snowe, did you have a specific question of the 
Director?
    Senator Snowe.  Well, it's just one. I'd just ask one 
question.
    Chairman Roberts. Okay.
    Senator Snowe.  And it's just on Iraq's potential nuclear 
capability. And I think that that is an issue that I would hope 
that, to the extent that you can, to give your perspective. I 
think we've seen, you know, nuclear-capable regimes and the 
complexities and challenges they represent to us and to the 
entire world. And I know you mentioned in your statement that--
referring to procurements that had been made or attempted to be 
made by Iraq, that they go beyond the aluminum tubes. And there 
was a question, a dispute about the aluminum tubes and whether 
or not it's used for rockets--could you just explain that? 
Thank you.
    Director Tenet.  Yes, ma'am. First, some history is 
important. At the time of the Gulf war the Iraqis were pursuing 
over five different routes to a nuclear weapon. In fact, when 
people walked into a facility after the Gulf war, they didn't 
even realize that there was a nuclear capability there until a 
defector told us to go look there. So he's had a concerted 
interest and an abiding interest in developing this capability, 
all while we have this period of inspections.
    Now, aluminum tubes are interesting, and I know there's 
controversy associated with it.
    Except that when you look at the clandestine nature of the 
procurement, and how they've tried to deceive what's showing up 
and then you look at the other dual-use items that they're 
trying to procure, we think we've stumbled onto one avenue of a 
nuclear weapons program. And there may be other avenues that we 
haven't seen. But that he is reconstituting his capability is 
something that we believe very strongly. If he had fissile 
material, we believe he could have a nuclear weapon within a 
year or two; that's our analytical judgment and our estimate.
    The question that we have to worry about in this regard as 
you look at developments in his ballistic missile force, the 
delivery systems, is are you going to be surprised on the short 
side of that estimative process, with or without fissile 
material, because he's pursuing other routes that we have not 
yet understood?
    So, for him, the whole game is about acquiring this nuclear 
capability. He's not someone--he's acquired these capabilities 
because he's aggressive and he intends to use them. And the 
question is, what do you do about somebody who continues to 
march down the road? Policy choices are yours, but no one 
should deceive themselves about what he intends to do.
    And he's living in a region that's different than the 
region Kim Jong-Il lives in. His standing army is larger--even 
though it's a third the size that it was during the Gulf War, 
it's still larger than all the GCC states and fellow Arab 
nations combined. And he's used force in the region twice. So, 
what is this all about for him? Domination of a region where 
there are vital national security interests at stake for us and 
where you have very fragile regimes.
    And that's a context that's a little bit different than the 
North Korean context, where facing down the South Koreans with 
American presence, the Japanese, the Chinese, or the Russians 
is a little bit different--not to mitigate the importance and 
seriousness of what's going on on the peninsula of North Korea. 
But you have to be able to think about these things in somewhat 
separable terms and in terms of how policymakers think about 
it. That's all I'd say.
    Senator Snowe.  But where is he most likely to acquire this 
fissile material?
    Director Tenet.  Well, this is the $500 question that maybe 
we can talk about in closed session.
    Senator Snowe.  But I think the important thing is here he 
could have the capability within a year----
    Director Tenet.  If he had the material. And of course, 
we're looking for signs that he's acquired it. We haven't seen 
it yet, but this is a whole other issue and area that's of deep 
concern to us in terms of how this material moves around the 
world.
    Senator Snowe. Thank you. Thank you.
    Chairman Roberts. I would like to thank all of the 
witnesses for your patience and your time and what you're doing 
for our country.
    Let me say again that outside the budget hearings, which we 
must hold to address some asset deficiencies, we will have a 
structural reform series of hearings, with the FBI going first 
and the community second. There will be public hearings and 
there will be private.
    And with that, again, I thank the witnesses, and the 
committee is adjourned.
    [Whereupon, at 12:53 p.m., the Committee adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9797A.054
    
    [GRAPHIC] [TIFF OMITTED] T9797A.055
    
    [GRAPHIC] [TIFF OMITTED] T9797A.056
    
    [GRAPHIC] [TIFF OMITTED] T9797A.057
    
    [GRAPHIC] [TIFF OMITTED] T9797A.058
    
    [GRAPHIC] [TIFF OMITTED] T9797A.059
    
    [GRAPHIC] [TIFF OMITTED] T9797A.060
    
    [GRAPHIC] [TIFF OMITTED] T9797A.061
    
    [GRAPHIC] [TIFF OMITTED] T9797A.062
    
    [GRAPHIC] [TIFF OMITTED] T9797A.063
    
    [GRAPHIC] [TIFF OMITTED] T9797A.064
    
    [GRAPHIC] [TIFF OMITTED] T9797A.065
    
    [GRAPHIC] [TIFF OMITTED] T9797A.066
    
    [GRAPHIC] [TIFF OMITTED] T9797A.067
    
    [GRAPHIC] [TIFF OMITTED] T9797A.068
    
    [GRAPHIC] [TIFF OMITTED] T9797A.069
    
    [GRAPHIC] [TIFF OMITTED] T9797A.070
    
    [GRAPHIC] [TIFF OMITTED] T9797A.071
    
    [GRAPHIC] [TIFF OMITTED] T9797A.072
    
    [GRAPHIC] [TIFF OMITTED] T9797A.073
    
    [GRAPHIC] [TIFF OMITTED] T9797A.074
    
    [GRAPHIC] [TIFF OMITTED] T9797A.075
    
    [GRAPHIC] [TIFF OMITTED] T9797A.076
    
    [GRAPHIC] [TIFF OMITTED] T9797A.077
    
    [GRAPHIC] [TIFF OMITTED] T9797A.078
    
    [GRAPHIC] [TIFF OMITTED] T9797A.079
    
    [GRAPHIC] [TIFF OMITTED] T9797A.080
    
    [GRAPHIC] [TIFF OMITTED] T9797A.081
    
    [GRAPHIC] [TIFF OMITTED] T9797A.082
    
    [GRAPHIC] [TIFF OMITTED] T9797A.083
    
    [GRAPHIC] [TIFF OMITTED] T9797A.084
    
    [GRAPHIC] [TIFF OMITTED] T9797A.085
    
    [GRAPHIC] [TIFF OMITTED] T9797A.086
    
    [GRAPHIC] [TIFF OMITTED] T9797A.087
    
    [GRAPHIC] [TIFF OMITTED] T9797A.088
    
    [GRAPHIC] [TIFF OMITTED] T9797A.089
    
    [GRAPHIC] [TIFF OMITTED] T9797A.090
    
    [GRAPHIC] [TIFF OMITTED] T9797A.091
    
    [GRAPHIC] [TIFF OMITTED] T9797A.092
    
    [GRAPHIC] [TIFF OMITTED] T9797A.093
    
    [GRAPHIC] [TIFF OMITTED] T9797A.094
    
    [GRAPHIC] [TIFF OMITTED] T9797A.095
    
    [GRAPHIC] [TIFF OMITTED] T9797A.096
    
    [GRAPHIC] [TIFF OMITTED] T9797A.097
    
    [GRAPHIC] [TIFF OMITTED] T9797A.098
    
    [GRAPHIC] [TIFF OMITTED] T9797A.099
    
    [GRAPHIC] [TIFF OMITTED] T9797A.100
    
    [GRAPHIC] [TIFF OMITTED] T9797A.101
    
    [GRAPHIC] [TIFF OMITTED] T9797A.102
    
    [GRAPHIC] [TIFF OMITTED] T9797A.103
    
    [GRAPHIC] [TIFF OMITTED] T9797A.104
    
    [GRAPHIC] [TIFF OMITTED] T9797A.105
    
    [GRAPHIC] [TIFF OMITTED] T9797A.106
    
    [GRAPHIC] [TIFF OMITTED] T9797A.107
    
    [GRAPHIC] [TIFF OMITTED] T9797A.108
    
    [GRAPHIC] [TIFF OMITTED] T9797A.109
    
    [GRAPHIC] [TIFF OMITTED] T9797A.110
    
    [GRAPHIC] [TIFF OMITTED] T9797A.111
    
    [GRAPHIC] [TIFF OMITTED] T9797A.112
    
    [GRAPHIC] [TIFF OMITTED] T9797A.113
    
    [GRAPHIC] [TIFF OMITTED] T9797A.114
    
    [GRAPHIC] [TIFF OMITTED] T9797A.115
    
    [GRAPHIC] [TIFF OMITTED] T9797A.116
    
    [GRAPHIC] [TIFF OMITTED] T9797A.117
    
    [GRAPHIC] [TIFF OMITTED] T9797A.118
    
    [GRAPHIC] [TIFF OMITTED] T9797A.119
    
    [GRAPHIC] [TIFF OMITTED] T9797A.120
    
    [GRAPHIC] [TIFF OMITTED] T9797A.121
    
    [GRAPHIC] [TIFF OMITTED] T9797A.122
    
    [GRAPHIC] [TIFF OMITTED] T9797A.123
    
    [GRAPHIC] [TIFF OMITTED] T9797A.124
    
    [GRAPHIC] [TIFF OMITTED] T9797A.125
    
    [GRAPHIC] [TIFF OMITTED] T9797A.126
    
    [GRAPHIC] [TIFF OMITTED] T9797A.127
    
    [GRAPHIC] [TIFF OMITTED] T9797A.128
    
    [GRAPHIC] [TIFF OMITTED] T9797A.129
    
    [GRAPHIC] [TIFF OMITTED] T9797A.130
    
    [GRAPHIC] [TIFF OMITTED] T9797A.131
    
    [GRAPHIC] [TIFF OMITTED] T9797A.132
    
    [GRAPHIC] [TIFF OMITTED] T9797A.133
    
    [GRAPHIC] [TIFF OMITTED] T9797A.134
    
    [GRAPHIC] [TIFF OMITTED] T9797A.135
    
    [GRAPHIC] [TIFF OMITTED] T9797A.136
    
    [GRAPHIC] [TIFF OMITTED] T9797A.137
    
    [GRAPHIC] [TIFF OMITTED] T9797A.138
    
    [GRAPHIC] [TIFF OMITTED] T9797A.139
    
    [GRAPHIC] [TIFF OMITTED] T9797A.140
    
    [GRAPHIC] [TIFF OMITTED] T9797A.141
    
    [GRAPHIC] [TIFF OMITTED] T9797A.142
    
    [GRAPHIC] [TIFF OMITTED] T9797A.143
    
    [GRAPHIC] [TIFF OMITTED] T9797A.144
    
    [GRAPHIC] [TIFF OMITTED] T9797A.145
    
    [GRAPHIC] [TIFF OMITTED] T9797A.146
    
    [GRAPHIC] [TIFF OMITTED] T9797A.147
    
    [GRAPHIC] [TIFF OMITTED] T9797A.148
    
    [GRAPHIC] [TIFF OMITTED] T9797A.149
    
    [GRAPHIC] [TIFF OMITTED] T9797A.150
    
    [GRAPHIC] [TIFF OMITTED] T9797A.151
    
    [GRAPHIC] [TIFF OMITTED] T9797A.152
    
    [GRAPHIC] [TIFF OMITTED] T9797A.153
    
    [GRAPHIC] [TIFF OMITTED] T9797A.154
    
    [GRAPHIC] [TIFF OMITTED] T9797A.155
    
    [GRAPHIC] [TIFF OMITTED] T9797A.156
    
    [GRAPHIC] [TIFF OMITTED] T9797A.157
    
    [GRAPHIC] [TIFF OMITTED] T9797A.158
    
    [GRAPHIC] [TIFF OMITTED] T9797A.159
    
    [GRAPHIC] [TIFF OMITTED] T9797A.160
    
    [GRAPHIC] [TIFF OMITTED] T9797A.161
    
    [GRAPHIC] [TIFF OMITTED] T9797A.162
    
    [GRAPHIC] [TIFF OMITTED] T9797A.163
    
    [GRAPHIC] [TIFF OMITTED] T9797A.164
    
    [GRAPHIC] [TIFF OMITTED] T9797A.165
    
    [GRAPHIC] [TIFF OMITTED] T9797A.166
    
    [GRAPHIC] [TIFF OMITTED] T9797A.167
    
    [GRAPHIC] [TIFF OMITTED] T9797A.168
    
    [GRAPHIC] [TIFF OMITTED] T9797A.169
    
    [GRAPHIC] [TIFF OMITTED] T9797A.170
    
    [GRAPHIC] [TIFF OMITTED] T9797A.171
    
    [GRAPHIC] [TIFF OMITTED] T9797A.172
    
    [GRAPHIC] [TIFF OMITTED] T9797A.173
    
    [GRAPHIC] [TIFF OMITTED] T9797A.174
    
    [GRAPHIC] [TIFF OMITTED] T9797A.175
    
    [GRAPHIC] [TIFF OMITTED] T9797A.176
    
    [GRAPHIC] [TIFF OMITTED] T9797A.177
    
    [GRAPHIC] [TIFF OMITTED] T9797A.178
    
    [GRAPHIC] [TIFF OMITTED] T9797A.179
    
    [GRAPHIC] [TIFF OMITTED] T9797A.180
    
    [GRAPHIC] [TIFF OMITTED] T9797A.181
    
    [GRAPHIC] [TIFF OMITTED] T9797A.182
    
    [GRAPHIC] [TIFF OMITTED] T9797A.183
    
    [GRAPHIC] [TIFF OMITTED] T9797A.184
    
    [GRAPHIC] [TIFF OMITTED] T9797A.185
    
    [GRAPHIC] [TIFF OMITTED] T9797A.186
    

</pre></body></html>
